<html>
<title> - STUDENT SAFETY IN THE JOB CORPS PROGRAM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                       STUDENT SAFETY IN THE JOB
                             CORPS PROGRAM

=======================================================================

                                6HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 22, 2017

                               __________

                           Serial No. 115-20

                               __________

  Printed for the use of the Committee on Education and the Workforce



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-922 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Elise Stefanik, New York             Mark Takano, California
Rick W. Allen, Georgia               Alma S. Adams, North Carolina
Jason Lewis, Minnesota               Mark DeSaulnier, California
Francis Rooney, Florida              Donald Norcross, New Jersey
Paul Mitchell, Michigan              Lisa Blunt Rochester, Delaware
Tom Garrett, Jr., Virginia           Raja Krishnamoorthi, Illinois
Lloyd K. Smucker, Pennsylvania       Carol Shea-Porter, New Hampshire
A. Drew Ferguson, IV, Georgia        Adriano Espaillat, New York
Ron Estes, Kansas

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 22, 2017....................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Barton, Mr. Jeffrey, Center Director, Earle C. Clements Job 
      Corps Academy, Morganfield, KY.............................    33
        Prepared statement of....................................    35
    Barnes, Ms. Cindy, Director of Education Workforce and Income 
      Security, Government Accountability Office, Washington, DC.     7
        Prepared statement of....................................     9
    Turner, Mr. Larry, Deputy Inspector General, Department of 
      Labor Office of Inspector General, Washington, DC..........    41
        Prepared statement of....................................    43

Additional Submissions:
    Adams, Hon. Alma S., a Representative in Congress from the 
      State of North Carolina:
        Letter from the Henderson Police Department..............    93
        Letter dated May 26, 2017 from the Henderson-Vance 
          Chamber of Commerce....................................    95
    Barletta, Hon. Lou, a Representative in Congress from the 
      State of Pennsylvania:
        Letter dated June 22, 2017 from the National Job Corps 
          Association............................................    72
    Ms. Barnes:
        Slide: Types of Onsite and Offsite Safety and Security 
          Incidents Reported by Job Corps Centers, January 1, 
          2007 - June 30, 2016...................................   118
        Slide: Number and Percentage of Reported Onsite and 
          Offsite Violent Incidents with Student Victims and 
          Perpetrators, and Staff Victims and Perpetrators, 
          January 1, 2007 - June 30, 2016........................   119
    Chairwoman Foxx:
        Slide: Fast Facts: Student Safety in the Job Corps 
          Program................................................   121
    Fudge, Hon. Marcia L., a Representative in Congress from the 
      State of Ohio:
        Letter dated April 6, 2017 from the Congress of the 
          United States..........................................   123
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado:
        Directive: Job Corps PRH Change Notice No. 15-09.........   133
        Directive: Job Corps Program Instruction Notice NO. 16-09   139
        Directive: Job Corps Program Instruction Notice No. 16-30   141
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the State of Virginia:
        Employment and Training Administration response (Appendix 
          B).....................................................    98
        Employment and Training Administration response to Draft 
          Report (Appendix C)....................................   109
    Shea-Porter, Hon. Carol, a Representative in Congress from 
      the State of New Hampshire:
        Letter dated June 7, 2017 from the City of Manchester 
          Police Department......................................    69
    Wilson, Hon. Frederica S., a Representative in Congress from 
      the State of Florida:
        Letter dated June 7, 2017 from the Miami Gardens Police 
          Department.............................................    79
        Letter dated June 7, 2017 from Florida Memorial 
          University.............................................    81
        Letter dated June 20, 2017 from Kiwanis..................    82
        Letter dated June 20, 2017 from Urban Growing Institute..    83
        Success Stories from Miami Job Corps Center..............   144
        Article: Paying it Forward! Two Miami Job Corps students 
          receive job offers from Job Corps alumnus..............   145
        Letter dated June 20, 2017 from Resource Room............   147
        Article: Holistic Approach At Miami Job Corps Center 
          Helps Students Succeed.................................   148
        Letter dated June 21, 2017 from Carcamo, Ms. Patricia....   149
        Letter dated June 21, 2017 from Mooneyhan, Mr. Dylan.....   150
        Letter dated June 21, 2017 from Shivers, Mr. MarcAnthony 
          J......................................................   151
        Letter dated June 21, 2017 from Reverend Dr. Jimmy Ray 
          Burke, Ph.D............................................   152
 
                      STUDENT SAFETY IN THE JOB
                             CORPS PROGRAM

                              ----------                              


                        Thursday, June 22, 2017

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:02 a.m., in Room 
2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the committee] presiding.
    Present: Representatives Foxx, Hunter, Roe, Walberg, 
Guthrie, Rokita, Barletta, Messer, Grothman, Allen, Lewis, 
Mitchell, Garrett, Smucker, Ferguson, Estes, Scott, Davis, 
Fudge, Polis, Wilson of Florida, Bonamici, Takano, Adams, 
DeSaulnier, Norcross, Krishnamoorthi, Shea-Porter, and 
Espaillat.
    Staff Present: Caitlin Burke, Legislative Assistant; 
Courtney Butcher, Director of Member Services and Coalitions; 
Amy Raaf Jones, Director of Education and Human Resources 
Policy; Jonas Linde, Professional Staff Member; Nancy Locke, 
Chief Clerk; Kelley McNabb, Communications Director; James 
Mullen, Director of Information Technology; Krisann Pearce, 
General Counsel; Clint Raine, Professional Staff Member; Lauren 
Reddington, Deputy Press Secretary; James Redstone, 
Professional Staff Member; Mandy Schaumburg, Education Deputy 
Director and Senior Counsel; Michael Woeste, Press Secretary; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Jacque Chevalier, Minority Director of Education Policy; Denise 
Forte, Minority Staff Director; Nicole Fries, Minority Labor 
and Policy Associate; Christine Godinez, Minority Staff 
Assistant; Eunice Ikene, Minority Labor Policy Advisor; 
Stephanie Lalle, Minority Press Assistant; Kevin McDermott, 
Minority Senior Labor Policy Advisor; Richard Miller, Minority 
Senior Labor Policy Advisor; Udochi Onwubiko, Minority Labor 
Policy Counsel; Veronique Pluviose, Minority General Counsel; 
and Kimberly Toots, Minority Labor Policy Fellow.
    Chairwoman Foxx. Good morning, everyone. A quorum being 
present, the Committee on Education and the Workforce will come 
to order.
    Welcome to today's full committee hearing. I'd like to 
thank our panel of witnesses and all of our colleagues for 
joining today's very serious discussion on the safety and 
security of the Job Corps program. I also want to note my 
disappointment that the Office of Job Corps has decided not to 
testify today. The attendance would have provided the committee 
with important information about the program and the measures 
taken by the Office of Job Corps to address these safety 
concerns.
    The Job Corps program is intended to help some of our 
Nation's most disadvantaged youth receive high-quality 
education, workforce development and support services in order 
to become more employable, responsible and productive citizens. 
The very purpose of the program is to serve those who are hard 
to serve and the safety of students and instructors within the 
Job Corps program should be priority one. Unfortunately, that 
is not the case and that is what brings us to today's hearing.
    The work of this committee, as well as other government 
bodies, such as the inspector general, have found a systemic 
and alarming lack of oversight in the safety and security of 
the Job Corps program. And we've reached a critical point where 
lives are in real danger if Congress does not act. In fact over 
30 different government reports and audits have raised concerns 
over the safety and security of the Job Corps program. A 2009 
IG report even noted that, quote, ``40 percent of 235 
significant incidents occurring at six centers during our audit 
period were not reported.''
    Even in 2015 an IG report specifically stated, quote, ``Job 
Corps needs to improve enforcement and oversight of student 
disciplinary policies to better protect students and staff.'' 
end quote.
    What is truly shocking and sad is that nine student deaths 
and a number of other violent or health-related incidents have 
occurred just since 2015 as a result of lapses in safety and 
security. These reports are extremely troubling and no program, 
no program sponsored by the Federal Government should have such 
tragedies associated with it.
    The committee has spent almost 2 years investigating and 
asking about these repeated lapses in safety and security 
within the Job Corps program and we are still without answers.
    What we do know is that the deficiencies and proper 
security measures are not isolated nor associated with one 
specific Job Corps center. This is a systemic problem 
throughout the Job Corps program. The security failures within 
Job Corps are a failure in basic good governance and jeopardize 
the safety of American citizens.
    Today we will hear testimony from witnesses who have made 
findings highlighting the troubling lack of safety and 
oversight in Job Corps centers. We will hear testimony about 
failures in reporting violent incidences, security lapses and a 
lack of cooperation with law enforcement officials.
    While these facts may be troubling, it is vital that we as 
a committee understand just where the lack of oversight has 
occurred in order for us to make proper recommendations to keep 
the Job Corps program safe for the future.
    The Job Corps program was designed to help disadvantaged 
young people gain the skills they need to achieve a good 
education, find a good paying job and have a successful life. 
Putting the students and instructors of the Job Corp program in 
harm's way does a disservice to its participants and the 
American taxpayers.
    I wish to thank the members of this committee for joining 
this discussion and thank our witnesses for coming up and 
talking to us today.
    I now yield to Ranking Member Scott for his opening 
remarks.
    [The statement of Chairwoman Foxx follows:]

  Prepared Statement of Hon. Virginia Foxx, Chairwoman, Committee on 
                      Education and the Workforce

    Good morning, and welcome to today's full committee hearing. I'd 
like to thank our panel of witnesses and my colleagues for joining 
today's very serious discussion on the safety and security of the Job 
Corps program. I also want to note my disappointment that the Office of 
Job Corps has decided not to testify today. Their attendance would have 
provided the committee with important information about the program and 
the measures taken by the Office of Job Corps to address these safety 
concerns.
    The Job Corps program is intended to help some of our nation's most 
disadvantaged youth receive high quality education, workforce 
development, and support services in order to become more employable, 
responsible, and productive citizens. The very purpose of the program 
is to serve those who are hard to serve and the safety of students and 
instructors within the Job Corps program should be priority one. 
Unfortunately that is not the case, and that is what brings us to 
today's hearing.
    The work of this committee, as well as other government bodies such 
as the Inspector General, have found a systemic and alarming lack of 
oversight in the safety and security of the Jobs Corps program, and we 
have reached a critical point where lives are in real danger if 
congress does not act.
    In fact, over 30 different government reports and audits have 
raised concerns over the safety and security of the Jobs Corps program. 
A 2009 IG report even noted that ``40 percent of 235 significant 
incidents occurring at [six] centers during our audit period were not 
reported.''
    Even in 2015, an IG report specifically stated, ``Job Corps needs 
to improve enforcement and oversight of student disciplinary policies 
to better protect students and staff.''
    What is truly shocking and sad is that nine student deaths and a 
number other violent or health related incidents have occurred just 
since 2015 as a result of lapses in safety and security.
    These reports are extremely troubling, and no program sponsored by 
the federal government should have such tragedies associated with it.
    This committee has spent almost two years investigating and asking 
about these repeated lapses in safety and security within the Job Corps 
program, and we are still without answers.
    What we do know is that the deficiencies in proper security 
measures are not isolated, or associated with one specific Job Corps 
center. This is a systemic problem throughout the Job Corps program.
    The security failures within Job Corps are a failure in basic good 
governance, and jeopardize the safety of American citizens.
    Today we will hear testimony from witnesses who have made findings 
highlighting the troubling lack of safety and oversight in Job Corps 
centers.
    We will hear testimony of failures in reporting violent incidents, 
security lapses, and a lack of cooperation with law enforcement 
officials.
    While these facts may be troubling, it is vital that we as a 
committee understand just where the lack of oversight has occurred in 
order for us to make proper recommendations to keep the Job Corps 
program safe for the future.
    The Jobs Corps program was designed to help disadvantaged young 
people gain the skills they need to achieve a good education; find a 
good-paying job; and have a successful life.
    Putting the students and instructors of the Job Corps program in 
harm's way does a disservice to its participants and the American 
taxpayers.
    I wish to thank the members of this committee for joining this 
discussion, and thank our witnesses for coming up and talking to us 
today.
                                 ______
                                 
    Mr. Scott. Thank you, Madam Chair. I would like to welcome 
our witnesses and thank them for their testimony.
    Today's hearing we'll discuss safety and security issues at 
Job Corps programs.
    Madam Chair, I certainly agree with you that violence is 
unacceptable and that safety, health and security of the Job 
Corps students and staff is critically important. I appreciate 
the inspector general's attention to these issues over the 
years and I believe the Department of Labor must continue to 
aggressively implement the corrective action initiated under 
the Obama administration and make additional improvements as 
necessary.
    We have to work together to make sure the Job Corps 
students and staff are living and working in safe environments. 
But we also have to recognize that the Job Corp program has a 
vital mission. We must recognize and appreciate the 
opportunities it provides for approximately 60,000 of America's 
disadvantaged and vulnerable youth every year.
    Madam Chair, as you know, an estimated 60 percent of Job 
Corps students dropped out of school or were expelled from 
school. In addition, 56 percent entered the program reading at 
or below the eighth grade level. Virtually all Job Corps 
students are from low-income families. Job Corps provides a 
safer environment for these young people and it's 
transformative for the overwhelming number of students who 
finish the program. In 2015, more than 80 percent of Job Corps 
graduates found a job, went on to college, or entered the 
military, and 71 percent received an industry recognized 
credential before graduation.
    Rigorous evaluations of the Job Corps found the program 
increases educational levels and earnings with youth over 20 
finding the most benefit. As the data and evaluation show, Job 
Corps is the ticket to helping disadvantaged youth achieve 
their educational goals, obtain a well-paying job, serve in the 
military, and build a better future for themselves. For some, 
Job Corps is a second chance. For others, it actually saved 
their lives.
    So as we discuss the legitimate concerns raised in the 
inspector general and GAO report regarding safety and security 
at Job Corps, I think it is reasonable to ask where these young 
people would be without the Job Corps program and how safe 
would they be.
    In Mr. Barton's testimony, he notes that the national 
mortality rate for 16 to 24 year olds between 2012 and 2015 was 
70.88 per 100,000. That's 70 for every 100,000, 70 died. 
Comparable rate for Job Corps 4.7. That's 70 died out in the 
public, only 4.7 in the Job Corps programs. That means the risk 
of death for young people 16 to 24 nationally was 15 times 
worse than Job Corps students. And what do we pay for the Job 
Corps program each year pales in comparison to what we would be 
on track to pay for some of these young people if they are 
incarcerated, on public assistance, or on Medicaid.
    Madame Chair, nearly 5 million our Nation's youth are both 
out of school and out of work. In 2015, 14 percent of youth 
aged 16 to 24 were unemployed, double the national unemployment 
rate. Twenty-two percent of youth do not graduate from high 
school, 40 percent of those who do are ill prepared for work or 
higher education. Now whether they have personal barriers to 
college and career such as involvement in juvenile or criminal 
justice system or come from low opportunity communities, our 
nation's disadvantaged youth deserves a chance to succeed. To 
make that happen we should not undermine, consolidate or 
eliminate educational and vocational programs such as Job 
Corps, whose students as Mr. Barton will eloquently say, call 
him every day, every single holiday break asking if they could 
return to the Job Corps center because they are concerned about 
violence in their community, the temptation of drugs or their 
own safety.
    The Job Corps centers are their refuge. So yes, let's be 
sure that we identify problems and work on problems identified 
by the inspector general. And we need to continue -- those 
problems have to be addressed, but let's not shoot at the wrong 
target. We need more Job Corps programs than ever. With this in 
mind, I am trying to say that our committee has advanced 
bipartisan legislation to expand opportunities for young 
people.
    Last year we passed Every Student Succeeds Act in a 
bipartisan way. We've moved the Juvenile Justice and 
Delinquency Prevention Act reauthorization. Later today on the 
floor, we will vote to reauthorize the Carl D. Perkins Career 
and Technical Education Act all on a bipartisan basis.
    So I hope we will continue that tradition by providing 
opportunities for young people in the future as we work towards 
reauthorizing and strengthening the Job Corps program.
    Before I conclude, Madam Chair, I want to join with you in 
saying that it is unfortunate that the Office of Job Corps 
withdrew from testifying in today's hearing. They would have 
been able to speak on how they have been able to address 
problems and concerns identified by the inspector general over 
the years.
    I would ask the Job Corps program about their zero 
tolerance policy. In the K through 12 system, we have seen that 
zero tolerance policies are based on zero common sense and have 
been found to be ineffective in promoting safety.
    Under the Job Corps' current zero tolerance program, a 
young person could be kicked out of Job Corps for being tardy 
for class or failing to adhere to a dress code. This policy is 
counterproductive and fails to ensure that Job Corps students 
have meaningful opportunities to succeed.
    Again, Madam Chair, thank you for convening the hearing. I 
look forward to the testimony of the witnesses and yield back 
the balance of my time.
    [The statement of Mr. Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    I would like to welcome our witnesses and thank them for their 
testimony. Today's hearing will discuss safety and security issues at 
Job Corps.
    I certainly agree with Chairwoman Foxx that violence is 
unacceptable and the safety, health, and security of Job Corps' 
students and staff is critically important. I appreciate the Inspector 
General's attention to these issues over the years, and I believe the 
Department of Labor must continue to aggressively implement the 
corrective action initiated under the Obama Administration and make 
additional improvements as necessary.
    We must work together to make sure Job Corps' students and staff 
are living and working in safe environments, but must not stop there.
    We must also stand together in strong support of Job Corps and its 
vital mission. We must recognize and appreciate the opportunities it 
provides for approximately 60,000 of America's disadvantaged and 
vulnerable youth every year.
    Madam Chair, as you know, an estimated 60 percent of Job Corps 
students dropped out of or were expelled from school. In addition, 56 
percent enter the program reading at or below an eighth-grade level. 
Virtually all Job Corps students are from low-income families.
    Job Corp provides a safer environment for these young people and is 
transformational for the overwhelming number of students who finish the 
program. In 2015, more than 80 percent of Job Corps graduates found a 
job, went on to college, or entered the military and 71 percent 
received an industry-recognized credential before graduation. Rigorous 
evaluations of the Job Corps have found that the program increases 
education levels and earnings, with youth over 20 finding the most 
benefit.
    As the data and evaluations show, Job Corps is a ticket to helping 
disadvantaged youth achieve their educational goals, obtain a well-
paying job, serve in the military, and build a better future for 
themselves. For some, Job Corps is a second chance. For others, it 
saved their lives.
    So as we discuss the legitimate issues raised by the Inspector 
General and GAO regarding the safety and security with Job Corps today, 
I think it's reasonable to ask where these young people would be 
without Job Corps. Where and how safe would they be if not for this 
program?
    In Mr. Barton's testimony, he notes that the national mortality 
rate for 16 to 24-year-olds between 2012 and 2015 was 70.88 per 
100,000, while the comparable rate for Job Corps centers was 4.7. That 
means the risk of death for young people 16 to 24 nationally is 15 
times greater than the risk for Job Corps students.
    And what we pay for the Job Corps program each year pales in 
comparison to what we would be on track to pay for some of these young 
people if they are incarcerated, on public assistance, and on Medicaid.
    Madam Chair, nearly 5 million of our nation's youth are both out of 
school and out of work. In 2015, 14 percent of youth ages 16 to 24 
years old were unemployed--more than double the national unemployment 
rate. Twenty-two percent of our youth do not graduate from high school, 
and 40 percent of those who do are ill-prepared for work or higher 
education.
    Whether they have personal barriers to college and career, such as 
involvement in the juvenile or criminal justice system, or come from 
low-opportunity communities, our nation's disadvantaged youth deserve a 
chance to succeed.
    To help make that happen, we should not undermine, consolidate, or 
eliminate education and vocational training programs such as Job Corps 
whose students - as Mr. Barton eloquently put it in his testimony - 
call him every single holiday break asking if they can return to the 
Job Corps center because they are concerned about violence in their 
community, the temptation to use drugs, or their own safety. Job Corps 
centers are their refuge.
    So, yes, let's make sure the problems identified by the Inspector 
General continue to be addressed by the Labor Department, but let's not 
shoot at the wrong target here.
    We need Job Corps more than ever, and we need more of it.
    With that in mind, I am proud to say that our Committee has 
advanced bipartisan legislation to expand opportunities for young 
people. We have moved the Juvenile Justice and Delinquency Prevention 
Act Reauthorization; and later today we will vote to reauthorize the 
Carl D. Perkins Career and Technical Education Act.
    I hope we will continue that tradition of providing opportunities 
for young people in the future as we work toward reauthorizing and 
strengthening Job Corps.
    Before I conclude, I just want to say that it's unfortunate the 
Office of Job Corps withdrew from testifying at today's hearing. They 
would have been able to speak to how they have been addressing the 
problems and concerns identified by the Inspector General over the 
years.
    I also would have asked them about Job Corps' zero tolerance 
policy. In the K-12 system, we've seen that zero tolerance policies are 
based on zero common sense and ineffective in promoting safety. Under 
Job Corps' current zero tolerance policy, a young person could be 
kicked out of Job Corps for being tardy for class or failing to adhere 
to dress code. This policy is counterproductive and fails to ensure to 
that Job Corps students have a meaningful opportunity to succeed.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Mr. Scott.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. Without objection, the hearing record 
will remain open for 14 days to allow such statements and other 
extraneous material referenced during the hearing to be 
submitted for the official hearing record.
    I now turn to introductions of our distinguished witnesses. 
Ms. Cindy Brown Barnes is the Director of Education Workforce 
and Income Security with the U.S. Government Accountability 
Office. Mr. Jeffrey Barton is the academy director for the 
Earle C. Clements Job Corps Academy in Morganfield, Kentucky. 
Mr. Larry Turner is the deputy inspector general for the U.S. 
Department of Labor, Office of Inspector General.
    I now ask our witnesses to raise your right hand.
    [Witnesses sworn.]
    Chairwoman Foxx. Let the record reflect the witnesses 
answered in the affirmative.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. We allow 5 minutes 
for each witness to provide testimony. When you begin, the 
light in front of you will turn green. When 1 minute is left, 
the light will turn yellow. At the 5 minute mark, the light 
will turn red and you should wrap up your testimony. Members 
will each have 5 minutes to ask questions.
    I now recognize Ms. Barnes for 5 minutes.

    TESTIMONY OF CINDY BROWN BARNES, DIRECTOR OF EDUCATION 
   WORKFORCE AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY 
                    OFFICE, WASHINGTON D.C.

    Ms. Barnes. Chairwoman Foxx, Ranking Member Scott and 
members of the committee, I am pleased to be here today to 
discuss GAO's preliminary observations on the safety and 
security of students in the Job Corps program. This work is 
part of our recently started effort to examine this issue.
    Job Corps is the Nation's largest residential, educational 
and career development program for low-income youth between the 
ages of 16 and 24. The program is administered by the 
Department of Labor and currently serves about 50,000 students 
each year at 125 Job Corps centers nationwide.
    My remarks today will cover one, the number and types of 
reported safety and security incidents. And two, student 
perceptions of safety at Job Corps centers.
    For this testimony we analyze the Department of Labor's 
incident data from January 2007 through June 2016. Due to 
concerns about the completeness of the data, we report the 
minimum number of incidents in the aggregate for those 9 years, 
but the actual numbers are likely higher. We also analyzed 
national student survey data from March 2007 through March 
2017. Overall, we found that Job Corps centers reported nearly 
50,000 safety and security incidents of various types that 
occurred both on site and off site from January 2007 through 
June 2016.
    During this time period, over 500,00 students were enrolled 
in the program. We found that 76 percent or about 38,000 of the 
reported incidents occurred on site and 24 percent occurred off 
site. In addition, about 21 percent of reported incidents 
involved violence.
    As you can see, with the figure on the monitor, three types 
of incidents represent 60 percent of all reported on site and 
off site incidents. Serious illnesses or injuries are 28 
percent, assaults at 19 percent, and drug related incidents at 
13 percent. The remaining 40 percent of reported incidents 
included theft, or damage to property, and breaches of security 
or safety, and other incidents.
    During this time, Job Corps centers reported 265 deaths 
captured in the other and assault categories in the figure on 
the screen. And the majority of these deaths occurred off site. 
Most of these deaths were due to homicides, medical causes and 
accidental causes.
    As shown in the table on the screen, Job Corps centers 
reported over 10,000 violent incidents, which include 
homicides, assaults and sexual assaults. Students were the 
majority of the victims in 72 percent of these reported violent 
incidents and perpetrators in 85 percent of these incidents. 
Staff were victims in 8 percent of these incidents and 
perpetrators in 1 percent of these incidents.
    As for the student survey data, we found that students 
generally reported feeling safe, but reported feeling less safe 
with respect to certain safety issues. The student survey asked 
49 questions about students' experiences in the Job Corp 
program, including 12 questions related to safety. Across these 
12 survey questions an average of 72 percent of students 
reported feeling safe.
    However, the average percentage of students who reported 
feeling safe on each individual survey question ranged from 44 
percent to 91 percent. For example, an average of 44 percent of 
students reported that they had never heard students threaten 
each other or had not heard such threats within the last month. 
The remaining 56 percent of students on average reported 
hearing such threats at least once in the last month.
    In conclusion, Job Corps students should be provided with a 
safe learning environment. However, as our preliminary analysis 
demonstrates, too many safety and security incidents are 
occurring at Job Corps centers and this is a cause for concern. 
And it is likely that the actual number of safety and security 
incidences is greater than the number we report in this 
statement. Our ongoing work will present opportunities for us 
to further examine these issues.
    Thank you. This concludes my statement and I will be happy 
to entertain any questions.
    [The statement of Ms. Barnes follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


    
    Chairwoman Foxx. Thank you Ms. Barnes.
    Mr. Barton, you're recognized for 5 minutes.

TESTIMONY OF JEFFREY BARTON, CENTER DIRECTOR, EARLE C. CLEMENTS 
               JOB CORPS ACADEMY, MORGANFIELD, KY

    Mr. Barton. Thank you, Chairwoman Foxx, Ranking Member 
Scott and members of the committee for inviting me to testify 
about the Job Corps program. I'm honored to have the 
opportunity to contribute to this important discussion about 
how we can strengthen and improve Job Corps, particularly as it 
relates to the safety and security of the students entrusted 
into our care.
    I cannot sufficiently express how serious student safety is 
to me and my colleagues across the Job Corps system. We are 
educators, counselors, mentors. But the most important role 
I've taken on in my professional life is caretaker to someone 
else's children and to your constituents.
    I have over 25 years of experience in Job Corps in multiple 
capacities, including having served as center director at three 
centers. I also served as a police officer in nearby Loudoun 
County, Virginia, which exposed me to the challenges of 
policing violence in criminal activity.
    I currently serve as the academy director of the Earle C. 
Clements Job Corps center in Morganfield, Kentucky. And today 
over 700 students from 29 States, including nearly 100 students 
from the districts of 13 members of this committee, are 
receiving training at my center.
    My center exemplifies the founding premise of Job Corps, 
that taking vulnerable youth out of challenging home 
circumstances and providing them with safe and secure living 
and learning environment will help them become employable. The 
Clements academy offers our students, the majority of whom 
dropped out or were kicked out of school, multiple options for 
completing their high school education.
    Our center also offers training in 19 occupations, 
including nursing and welding, and the opportunity to earn any 
of hundreds of industry recognized credentials. This year 95 
percent of my vocational students have earned an industry 
recognized credential. And 91 percent of my graduates 
transitioned into employment or higher education.
    Based on my experience, I can tell you that these successes 
are predicated on providing a safe and secure environment for 
our students to live and learn. The entire Job Corps community 
was shocked by the tragic incidents that occurred in Job Corps 
2 years ago, because those were our students. We work hard to 
prevent such events.
    Over the course of my career the 3 days which I received 
phone calls that one of my students had passed as a result of 
medical issues were among the worst days of my life. Preserving 
and protecting the lives of these students is not an abstract 
concept to me. I know them, I know their families. I know their 
hopes and I know their dreams. And to see those taken for any 
reason is heartbreaking.
    These two tragedies are not representative of Job Corps' 
overall safety record. And in fact, based on data from the last 
4 years, Job Corps students were 15 times safer, on Job Corps 
campuses, than their peers, including their nondisadvantaged 
peers nationally.
    Nonetheless, these incidents necessitated a reevaluation 
from top to bottom of whether we were doing everything we can 
to protect our students. As a result of that review, Job Corps 
has taken multiple actions, including updating the zero 
tolerance policy, clarifying when to call law enforcement, 
updating and enhancing center security plans, implementing new 
procedures for reporting significant incidents, and introducing 
new hotlines for students to anonymously report safety 
concerns.
    Unfortunately, we cannot completely shield our students 
from violence, substance abuse or mental health disorders given 
the population that we serve and the communities from which 
they often come. Our students often tell us stories about how 
they enrolled in Job Corps to escape gangs, unstable home life, 
or an unsafe community. And every single holiday break, I 
receive calls from students asking if they can return to Job 
Corps early because they are concerned about violence in their 
community, the temptation or peer pressure to use drugs or for 
their own safety. For many of our students our center is a 
refuge.
    Nationally there are 4.9 million young Americans age 16 to 
24 who are neither employed nor enrolled in school, yet 
employers frequently report they cannot find the workers they 
need. The bottom line is we need these young people to gain the 
skills they need to participate in the workforce and many of 
these young people need Job Corps to be successful. Ensuring 
these students' safety and security is critical to that success 
so we will continue to be vigilant and to improve.
    And I appreciate the opportunity to contribute to this 
discussion and look forward to answering any questions you may 
have. Thank you.
    [The statement of Mr. Barton follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Chairwoman Foxx. Thank you, Mr. Barton.
    Mr. Turner, you're recognized for 5 minutes.

TESTIMONY OF LARRY TURNER, DEPUTY INSPECTOR GENERAL, DEPARTMENT 
     OF LABOR OFFICE OF INSPECTOR GENERAL, WASHINGTON, D.C.

    Mr. Turner. Good morning Chairwoman Foxx, Ranking Member 
Scott and distinguished members of the committee. Thank you for 
an opportunity to discuss the Office of Inspector General's 
oversight work of the Department of Labor's Job Corp program.
    My testimony today will focus on issues related to the 
safety and security of Job Corps students. In 2015 two students 
were killed at different Job Corps centers, allegedly by fellow 
students. While the two murders put a spotlight on the issue or 
violence in the Job Corp program, OIG has been reporting for 
the past 8 years on the challenges that Job Corps faces in 
providing a safe, learning environment. From 2009 through 2015 
a series of audits covering 24 centers reveal serious problems 
with how student misconduct had been addressed.
    Unfortunately, student misconduct is not uncommon at Job 
Corps centers. During the 2-year period covered by our 2015 
audit, there were 35,000 serious student misconduct incidents 
reported across Job Corps' 129 centers. This series of audits 
found centers' operators too often allow potentially dangerous 
students to remain in the program despite behavior that should 
have resulted in their dismissal. Specifically we found centers 
did not consistently investigate and adjudicate alleged serious 
student misconduct such as physical assault, weapons possession 
and distribution of drugs.
    Centers did not conduct many student disciplinary hearings 
in a timely manner. Centers failed to report many serious 
incidents to Job Corps. And centers inappropriately downgraded 
serious incidents to lesser infractions that did not require 
dismissal of the student.
    For example, one center found a student in possession of 
illegal drugs on center property. Instead of charging this 
student with violating Job Corps zero tolerance policy and 
terminating him from the program, the center opted to downgrade 
the offense to a lesser infraction. Seventy-four days later, 
this same student was dismissed after assaulting and injuring 
another student.
    After the murders of the two Job Corps students in 2015, a 
team of OIG auditors and criminal investigators conducted a 
joint review to examine how Job Corps was identifying and 
managing risk to safety and security at its centers. Eleven of 
the 12 centers the team visited failed to report 40 percent of 
the potentially serious criminal misconduct incidents to law 
enforcement. Furthermore, these 12 centers also failed to 
report numerous significant incidences to Job Corps and 
misclassified many of the incidents they did report.
    We also found one-third of Job Corps centers had not 
established cooperative agreements with law enforcement 
organizations. Of the centers with agreements, 85 percent 
failed to include adequate descriptions of center and law 
enforcement's roles and responsibilities.
    During the site visits to the 12 centers, the team observed 
physical security weaknesses such as inadequate and unmonitored 
closed circuit television systems, security staff shortages and 
compromised perimeters. Our review also found Job Corps 
required pre-employment background checks to very few center 
positions and had not defined criminal histories that would 
disqualify individuals from employment.
    To address the problems identified by our audit, Job Corps 
has reported initiating numerous corrective actions such as 
establishing a division of regional operations and program 
integrity. In part to improve oversight of center safety. 
Revising a zero tolerance student conduct policy, developing 
tools to better assess applicant's readiness to benefit from 
Job Corps, rolling out a new criminal background check process 
for student applicants and conducting $12 million security 
pallets at 14 centers.
    The media's core mission of attracting at risk youth 
teaches them the skills they need to become employable and 
independent and placing them in meaningful jobs or further 
education, Job Corps must provide a safe learning environment 
for its students.
    Since our last audit, Job Corps has taken numerous actions 
to make centers safer. Nonetheless, we continue to have a 
significant number of serious incidents reported to us. 
Therefore, Job Corps still has work to do. Job Corps needs to 
quickly complete the various safety initiatives it has recently 
begun. Further, Job Corps must be more vigilant in its 
monitoring to ensure center operatives fully enforce Job Corps 
zero tolerance policy.
    Job Corps also needs to establish appropriate law 
enforcement jurisdiction and agreements for each center, assess 
campus physical security at all centers, and develop and 
implement policy for criminal background checks for center 
employees.
    Thank you for the opportunity to testify on our work. I 
would also like to publicly acknowledge the great work that the 
men and women of the Office of Inspector General do every day.
    I would be pleased to answer any questions that you have 
and the members of the committee. Thank you very much.
    [The statement of Mr. Turner follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairwoman Foxx. Thank you very much, Mr. Turner.
    I'm very appreciative again of all of the witnesses. I will 
begin the questioning this morning.
    Chairwoman Foxx. Ms. Barnes, your findings indicate the 
incident reporting data you analyzed was incomplete. And 
therefore, the numbers you presented today represent the 
minimum number of safety related incidents. Do you believe 
there is a much bigger safety issue than the contractors, 
Department, and we are aware of?
    Ms. Barnes. Yes. Mr. Turner just testified in the March 17 
IG report mentioned 12 centers, that 34 percent of the data was 
missing out of the significant incident reporting system. So my 
testimony today explains that we reported a minimum number 
around 50,000 incidents, but it is likely higher. The 
Department of Labor has also told us that there are problems 
with the data and the reporting of the significant incidents 
and is not contained therein. So to answer your question, yes.
    Chairwoman Foxx. Thank you. It is bad enough as it is, let 
alone the fact that we think it's a lot worse.
    Mr. Turner, your work has highlighted two major components 
of the student safety concerns with the Job Corp program. The 
first piece revolves around oversight and management 
deficiencies in the Department. The second piece and of equal 
importance is contractor complacency or efforts to game the 
system. Do you believe the Department or contractors have 
played the larger role in the safety and security incidents 
that have been observed over the last few years?
    Mr. Turner. I believe that the bulk of the responsibility 
lies with the Department. The Department is responsible for 
setting guidelines and policy also for overseeing that 
operation. In addition, the contractor's work under the 
guidance of the Department. Although it is somewhat of a joint 
responsibility, ultimately the responsibility lies with the 
DOL.
    The other part of that too is DOL has the opportunity to 
evaluate the performance of the contractor so they have some 
impact on whether they accept the performance that has been 
given by the contractor.
    Chairwoman Foxx. Ms. Barton, do you agree with Mr. Turner's 
assessment about the contractor's role in the lack of safety 
protections in the centers?
    Ms. Barnes. Yes, I do agree with that assessment. The 
Department has over our responsibility for developing the 
policies and procedures and for the implementation of those 
policies and procedures, oversight and monitoring of the 
contractors at the Job Corps centers.
    Chairwoman Foxx. Mr. Barton, please give me your reaction 
to Mr. Turner's assessment.
    Mr. Barton. My reaction is safety and security in Job Corps 
is our absolute, number one priority. Our students come from 
challenging neighborhoods where violence, gang activity is 
rampant. There is nothing more important than maintaining safe 
centers. In Ms. Barnes' opening she said herself many of the 
incidents occur off site. And that's why Job Corps centers need 
to continue to be a safe refuge, free of gang activity, free of 
drug use, free of violence. And we are everything possible to 
make sure that our students understand this challenge, staff 
are trained, centers are safe. And the most important thing is 
being visible and connected.
    Manage by walking around, know every student, know what 
they are going through, know the staff. This is serious 
business. We take it very seriously, the lives of over 50,000 
young people every single year. And what's troubling is to hear 
about these events, but I think Job Corps has acknowledged 
improvements moving forward and the most important platform is 
safety and security for our students.
    Chairwoman Foxx. Thank you, Mr. Barton.
    Mr. Turner, the Job Corps policy and requirements handbook 
states that the purpose of Job Corps' residential living 
program is to provide a safe and secure living environment for 
students. Do you believe Job Corps centers have met this 
responsibility?
    Mr. Turner. I do not believe they have fulfilled that 
responsibility. I think part of that is that Job Corps has to 
do a better job of micromanaging and overseeing some of the 
jobs that's taking place at the centers. I believe too often 
they have not provided the oversight by monitoring some of the 
actions that they expect. And too often the centers have been 
allowed to kind of operate independently on their own without 
proper oversight.
    Chairwoman Foxx. Thank you very much. I want to say it is 
very troubling again, as I said in my opening statements, that 
the Federal Government -- the taxpayers of this country are 
funding programs and where deaths occur in the participants who 
are attending the programs.
    Mr. Scott, I recognize you for 5 minutes.
    Mr. Scott. Thank you, Madam Chair. I would like to follow 
up on that last question. Mr. Turner, do you know what the 
crime rate is for students, similar demographics, outside of 
the Job Corps, compared to those in the Job Corps?
    Mr. Turner. No, sir, I would not have that information.
    Mr. Scott. When you say it is not safe, the question is 
compared to what?
    Mr. Turner. Well sir, when I say it is not safe, what I am 
saying is that based on the number of complaints that we have 
received from students and staff, they come through our hotline 
and some of those come through our submitted and significant 
incident reports.
    Mr. Scott. That's right. Any incident would be a 
disappointment. The question, as Mr. Barton has pointed out, if 
they were not in the Job Corps, would it be better or worse? 
And Mr. Barton, can you respond to that?
    Mr. Barton. Yes. According to the latest statistics from 
the CDC let me just say this, Job Corps students both on and 
off center are 2.5 times less likely to commit suicide, four 
times less likely to die from a drug overdose, 15 times safer 
than their counterparts, 16 to 24 years old nationally.
    At Earle C. Clements, we have a 90 percent placement rate, 
94 of our students have credentials right now. Students don't 
achieve where they don't feel safe. They don't prosper where 
they don't feel as if the environment is safe, warm, friendly 
and they have outlets to report.
    So while we can acknowledge the findings from Mr. Turner 
and Ms. Barnes, the fact of the matter is safety and security 
at all Job Corps centers is paramount and we will continue to 
implement the initiatives from the national Office of Job Corps 
to ensure the safety and security of all students.
    Mr. Scott. Now as a result of Job Corps, can you tell me 
what happens to the prospects for employment for higher 
education of the graduates of Job Corps compared to the 5 
million disconnected youth that you refer to?
    Mr. Barton. I can tell you that Job Corps offers an 
environment for a student to prosper. But if I would, if I 
could just take a few minutes, I would like to read you an 
excerpt from a student. It is in part, it is just a synopsis.
    After 8 months of this, my mother told me I had 2 months to 
figure something out because I could no longer stay there doing 
nothing. I tried to enlist in the military but that wasn't an 
option and I didn't know what I was going to do. I did my 
research and learned about Job Corps. I met with my outreach 
and admissions counselor, and it sounded tough, but I knew I 
had to try or be homeless again.
    But ever since I've gotten here things have changed so much 
for me, waking up early, making my bed, cleaning my room, 
dressing appropriately, going to class consistently, and so 
forth taught me a lot about discipline and caring for myself. 
The more I started to accomplish, the more and more proud of 
myself I became, which pushed me to achieve even greater 
things.
    I feel very safe here at Earle C. Clements Job Corps 
Academy. I never really had a problem with any other students 
or staff and I believe this was critical for my success here, 
because my home environment was unpredictable and chaotic. But 
here, I was taught to trust again and have felt very 
comfortable.
    So in addition to a safe environment what Job Corps does is 
give young people hope, a sound platform to move forward.
    Mr. Scott. And that student seems like he's on a totally 
different trajectory than he was before the Job Corp program. 
Do any of you have results of studies that point to the 
difference in crime rate or teen pregnancy or employment before 
and after Job Corps experience?
    Mr. Turner. No, sir, I do not.
    Mr. Scott. Ms. Barnes?
    Ms. Barnes. I do not.
    Mr. Scott. Any question, Mr. Barton, that Job Corps 
participants are much more likely to get a job, much more 
likely to improve their education, much less likely to commit a 
crime or become a teen parent?
    Mr. Barton. I can tell you that the success stories are 
countless and heartwarming. Just recently we put two of our 
tile setting completers to work making over $25 an hour. And 
this goes for any one of our career and technical training 
offerings.
    Our students are leaving with primary credentials, high 
school diplomas, and on the pathway to college, advanced 
training, entrance into the military, and all the while 
achievement of these heights, of this standard will not occur 
if students did not feel safe, if they didn't feel welcome and 
if they didn't have an outlet to go to if they felt that 
trouble was coming.
    Chairwoman Foxx. Thank you very much.
    Dr. Roe, you're recognized for 5 minutes.
    Mr. Roe. Thank you, Madam Chairman. And I want to start by 
saying I have been a very staunch supporter of the Job Corps 
since I've been in the Congress the 8-1/2 years I've been here. 
And I have a Job Corps site in my district which I've visited. 
I also visited the one in southwest Virginia that had an 
incident not long ago. And I could not agree more, Mr. Barton, 
that safety is a huge, huge issue. And I read our literature 
here and seen the number of what appear to be drug overdose 
deaths. That's not a Job Corps specific. That's a systemic 
around the entire population of this country.
    I will give you an example, I serve on the Veterans' 
Affairs committee and 20 veterans a day commit suicide. It is a 
societal problem. Drug abuse. And where I live in my part of 
the country, and certainly in southwest Virginia, New 
Hampshire, Maine other States have a terrible problem with drug 
abuse. So it is not confined just to Job Corps.
    And I think you're absolutely right about a safe 
environment. I guess one question I have and it has always 
concerned me, if Job Corps is not there for these students, and 
I had almost 10 years I lived and worked with young people and 
patients in inner center Memphis, if not Job Corps, what, what 
do they end up doing because it's -- I've looked at like this, 
it is either pay me now or pay me later.
    So many of these young people may end up incarcerated or -- 
and what you, Mr. Barton, have described and the way I always 
have looked at this is what is the value of saving one young 
people in changing not only their life, but the life of 
everybody they come in contact with. I can assure you that if 
you've got a young man or woman who is making $25 an hour, they 
are going to be able to take care of a family, they are not 
going to need Medicaid, they are not going to need all these 
services that they may otherwise need.
    And I think you pointed out I know there's something that's 
got to be unique about you if you leave a community, a city, 
and you go to the Job Corps site, which is in the mountains 
where I live, and there's got to be something different about 
you to want to get out to make something of yourself.
    So I just say that to start with so what would happen if 
there were not a Job Corps for these kids? And anybody can take 
this on.
    Mr. Barton. So I can tell you at Earle C. Clements we have 
graduation every 30 days. For some of our students, they are 
the first person in had their family to graduate from 
anything.I21Mr. Roe. Anything.
    Mr. Barton. And what a proud moment that is. And so what 
that does is that only doesn't give that student hope but maybe 
their little brother or sister hope, maybe their cousin, maybe 
somebody at home. And so it starts another initiative in the 
house of achievement, knowing that education is powerful and 
that there is another outlet aside from gang activity, maybe 
illicit drug use or sales. There is another way to go about 
this. And Job Corps is a safe place to teach students that.
    Mr. Roe. Thank you.
    Mr. Turner is the OIG satisfied or anyone can take this, 
Ms. Barnes too, with the Job Corps actions following the 2015 
audit. Do you think they are doing enough to adequately 
protect? That's been asked once before, but I think we need 
that for the record.
    Mr. Turner. We are encouraged by what the Job Corps is 
doing. Previous in 2009 and 2010 audits they corrected 
everything that we identified as a deficiency. However, part of 
the problem with Job Corps they need to do a better job with 
just following through.
    Once a correction has been made we found out over time we 
find that there are still additional problems that resurface. 
And so we expect that Job Corps needs to do a better job. As 
far as the 2015 report, we've been encouraged that they have 
made a big effort to come with a lot of new initiatives. And so 
those initiatives I think will pay off in the long run.
    In regards to your earlier question, OIG believes that the 
Job Corp program is a very important program. The IG, Scott 
Dahl, and myself and Elliot Lewis, assistant inspector general 
for audit, we actually visited a Job Corps center because we 
wanted to find out firsthand the importance of what was taking 
place at the Job Corps center.
    And we had a chance to meet students that come from rural 
places and we saw some of the changes and developments and we 
engaged with them and saw what the program meant to them. I 
personally had a family member that has gone through the Job 
Corps program and they have had some advancements in their life 
due to the Job Corps program.
    Mr. Roe. I've been to multiple times to Job Corps sites and 
spoken at graduations, it is really inspiring.
    Very quickly, you found, Mr. Turner, that 32 percent of 41 
Job Corps centers have not established a cooperative agreement 
with local law enforcement agencies and yet that's a 
requirement. Why wouldn't that have happened? That's pretty 
simple --
    Mr. Turner. We were kind of surprised by that, because we 
believe these policies need to be identified early on before 
something actually happens. It is a little late in the game for 
an emergency to happen and then you try to find out who's 
responsible, what roles people have, and what jurisdiction 
belongs to who. So we think that's an important part, so we 
were somewhat surprised by the pushback that we were getting 
from the Department on that.
    Mr. Roe. Thank you. I yield back.
    Chairwoman Foxx. Thank you, Dr. Roe. Ms. Fudge you are 
recognized for 5 minutes.
    Ms. Fudge. Thank you very much, Madam Chairman. And thank 
you all so much for being here today.
    Madam Chairman, let me just first bring to your attention 
an appropriations letter that I helped lead to support Job 
Corps. It is signed by 133 Members of this Congress from both 
sides of the aisle. So we are all very supportive of Job Corps.
    There are three job centers in the State of Ohio. All of 
whom have an overall student outcome performance of better than 
90 percent, so we are very pleased with the work that is going 
on in Ohio in Job Corps.
    I represent an urban area. I represent the City of 
Cleveland and the City of Akron. I would argue that there are 
less safe places than the Job Corps in my communities. But Mr. 
Barton, we know that Job Corps' intended to serve one of the 
hardest to serve student populations. Can you expand on what 
type of services the students need when you receive them? And 
what degree of direction and discretion did you believe you 
need to bring these young people to a point where they can be 
productive citizens?
    Mr. Barton. And again, many of our students do come from 
very challenging neighborhoods. And one of things that would 
help a lot if we had some more flexibility and latitude, let's 
say to command more mental health hours. We see students that 
come into the program that may have some mental health needs 
that we don't have the capacity right then and there to treat. 
So the flexibility for more of those hours or attention to 
students with those needs would be absolutely helpful.
    But again, Job Corps partners with our local community, 
local hospitals. And I just think the key to the centers 
success in Job Corps' partnerships but always keeping safety 
and security first.
    Ms. Fudge. And certainly if you addressed things like 
mental health, you would probably even see a smaller amount of 
violence in and around the centers.
    Mr. Barton. It is possible.
    Ms. Fudge. Secondly, Mr. Barton, you testified that due to 
the revised zero tolerance policy that now almost one in four 
Job Corps students are expelled. What happens to these 
students? Where do these students go to turn for help when they 
can't come to Job Corps anymore?
    Mr. Barton. The one in four statistics is sobering, but I 
think we need to look at what happens before that. And I think 
this is an ongoing challenge of Job Corps for us to remain 
connected with students from the minute they get on center to 
the time that they graduate, to help them with some of those 
behaviors, identify them early. However, if a student does not 
manage to complete the program, they will be faced with just 
what they were before they entered into the program.
    So we try at all costs to have all students be successful 
and that comes from immediate wrap around services, evening and 
weekend programs, because that's when most of the trouble 
happens on the street is at night and on the weekends. So it 
becomes critical that Job Corps centers have structured evening 
and weekend programs to make sure that our students have 
initiatives to be involved in and aren't just wandering 
aimlessly.
    So we think that structured approach in Job Corps will 
continue to help and we won't have to deal with those -- that 
many students that don't make it through the program.
    Ms. Fudge. Do you have any idea what the average cost is 
for a student in Job Corps, annually?
    Mr. Barton. I can tell you at Earle C. Clements it is 
somewhere in the neighbor of $20,000 to $30,000 a year.
    Ms. Fudge. But actually less than it would be if they end 
up in prison.
    Mr. Barton. Absolutely.
    Ms. Fudge. Thank you very much.
    Madam Chair, I yield back.
    Chairwoman Foxx. Thank you, Ms. Fudge.
    Mr. Walberg, you're recognized for 5 minutes.
    Mr. Walberg. Thank you, Madam Chairman.
    Mr. Turner and all the panel, thank you for being here. Mr. 
Turner, overall how effective would you say that the Department 
and the Office of Job Corps has been responding to your safety 
and security related recommendations?
    Mr. Turner. As I've mentioned earlier, we have seen an 
improvement in the response. The 2015 report and the 2017 
report, they have responded. We have been working with them for 
the last year and a half on the 2015 report. Let me just kind 
of give you an example of what happens, when we come up with 
deficiencies, we did notify the Department. And once we release 
our report, the Department has 60 days to provide a response to 
us.
    On the 2015 report, they have been also coordinating with 
us for the last year and a half, so initially they provided us 
some response, but they have not completed and have not 
resolved all the issues and recommendations that we identify.
    Mr. Walberg. What recommendations are still outstanding if 
you could -- ?
    Mr. Turner. It would be easier between 2015 and 2017 to say 
the ones that they had -- there's only 15 that were 
outstanding, only two have been resolved. That combined the 
2015 into 2017 report.
    Mr. Walberg. Could you give me at least some examples of 
the 15 that still aren't resolved?
    Mr. Turner. Some of the ones that have not been resolved 
deals with law enforcement. And it is one of the ones that we 
are just trying to come to common ground on.
    There's also -- the ones that have been resolved, I guess 
are the backlog, the one that just was completed. The backlog 
of the serious incident reports. There were over 9,000 
backlogged and we just got an indication in the last couple 
weeks that they had found and resolved most of the issues on 
that and provided a corrective action plan going forward.
    Mr. Walberg. I guess the next question to come to my mind 
is if they've come close to resolving this, but the other 15 -- 
do you know why they are still outstanding?
    Mr. Turner. Well part of it is because -- and we can 
provide you a list of the outstanding ones, but part of the 
reason is because in some cases they are kind of giving us a 
paper fix, they grant us a policy and they want to close the 
issue. But we want to kind to see the effects of some of the 
policies that they are suggesting. So it's more than just 
showing us that you have a copy of a new policy change. We want 
sometimes to just take a look and observe and to see if the fix 
that they have suggested actually works and so that is why it 
is taking longer. For instance, the response that they just 
provided on the 2017 report they just provided that to us 
earlier this week. And several of those they proposed that we 
close. Well, it is premature to close those and we have not had 
a chance to observe, assess and to see that the fix is really 
in place.
    What happened in 2009 was that we closed some of their 
recommendations and overtime, they did not have a system in 
place to go back and monitor and do checks. I think one of the 
initiatives that they have now is they are beginning to do more 
spot checks and have teams that out for up to a week to make 
sure those places -- those recommendations are taking effect.
    Mr. Walberg. So would you say that right now that they are 
making a good-faith effort?
    Mr. Turner. No doubt. They are making a good-faith effort.
    Mr. Walberg. You mentioned in your testimony that the 
Department cannot exercise appropriate oversight due to 
deficient reporting on significant incidents. What are the full 
range of dangers involved when Job Corps centers do not report 
on these incidents?
    Mr. Turner. One of the major problems that happens is for 
instance I will give you the example of the zero tolerance 
policy, if we are allowing students that should be dismissed to 
remain in the program, what you do is you put the other 
students at risk. And those are with level one offenses, from 
sexual assault to physical assault, some of these problems that 
occur. So I think what we've got to do, what Job Corps has to 
do is look at the center as a whole and see how can they be 
more effective to protect students. Although I applaud Mr. 
Barton in what he's going through at his center, but that is 
just one center of the 129 that we have to deal with.
    Mr. Walberg. Important issues as I understand it, these are 
recurring findings in many cases.
    Mr. Turner. Not only are they recurring findings, but some 
of those have not even been reported. I think that's what we 
saw with the significant incidents. You had some that had not 
been reported. There were some cases where students actually 
went to the hospital and that was not classified or not 
reported to the Job Corps.
    Mr. Walberg. Oh. Well, I hope you keep on it, because the 
program can have, as we've heard, have great impact, but these 
are challenges. So I yield back.
    Chairwoman Foxx. Thank you, Mr. Walberg.
    Mr. Polis, you're recognized for 5 minutes.
    Mr. Polis. Thank you Chairwoman Foxx and Ranking Member 
Scott.
    The Job Corps, as you know, can effectively provide 
specialized services to meet the needs of at-risk young people. 
In Colorado, the Job Corps center in Collbran provides students 
with new skills in areas like carpentry, computer networking, 
and welding. Seventy-two percent of the students receive a 
credential, those students in our society and the workforce are 
better off because of these programs.
    Mr. Barton, I want to thank you for being here today. You 
shared some of your experiences and successes you've seen at 
Job Corps. You mention in your testimony that the national 
mortality rate for 16 to 24 year olds is 15 times higher for 16 
to 24 year olds as a whole compared to participants in the Job 
Corps. Do you feel if the Job Corps will cut back or eliminated 
it will put more lives of young people at a higher degree of 
risk?
    Mr. Barton. It would absolutely be a disaster. Job Corps is 
needed and necessary. It is a refuge for thousands of young 
people. The centers provide needed skilled training and a 
variety of CTT offerings in vocational trades and absolutely it 
--
    Mr. Polis. In addition to that, think based on your 
testimony you are also indicating that it would actually put 
their lives at greater risk if they were not participants in 
Job Corps.
    Mr. Barton. That's correct.
    Mr. Polis. And even though the national office isn't here 
today, I have a directive from the national office on Job Corps 
outlining the steps programs should take just for student 
safety. And I would like to ask unanimous consent to submit 
that to the record.
    Chairwoman Foxx. Without objection.
    Mr. Polis. It includes the three detectives offered. Even 
though they are not here today share with us. Even further 
student safety had you serious Job Corps directors and programs 
taking the incidents St. Louis and Homestead and what changes 
are being made to enhance student safety?
    Mr. Barton. Again, those incidents were shocking, but I can 
tell you the message has been clear. Safety and security is the 
foremost priority in Job Corps. Immediately Job Corps updated 
the zero tolerance policy, clarified and went to call law 
enforcement, updated center security plans, but more 
importantly it is about being connected to the student body, 
making sure that we're keeping their living area safe, their 
dormitories, their classrooms, the center grounds, making sure 
that students have an outlet to report anything doesn't seem 
appropriate or right on job corps centers.
    And there are ways to do that. There has been a national 
text line that has been implemented through our national 
office. Students have email addresses where they can email 
staff members, any staff member on center, day or night. And so 
the platform is there. The stage has been set, safety and 
security by far is what we watch every day, we are plugged into 
it, we are making sure that centers or at least doing 
everything we can for the initiatives that have been outlined 
by Mr. Turner and Ms. Barnes.
    Mr. Polis. And some of those steps that already being taken 
and will further be approved on are some of the reasons that it 
is 15 times safer to be in Job Corps than out of Job Corps?
    Mr. Barton. Just think, there is always room for 
improvement and constantly looking to see what we can do to 
enhance safety at centers and we will continue to do so.
    Mr. Polis. I also want to ask about your program 
participation with local community colleges. In Colorado, 
students part pat in dual and concurrent enrollment are more 
likely to continue taking classes full-time to get a degree, 
gives them a leg up in certifications as well. Can you talk 
about how your Job Corps students receive college credit? Are 
there programs that support dual enrollment in college courses? 
What's your experience been with the partnering community 
colleges?
    Mr. Barton. Certainly. At Earle C. Clements Job Corps 
center we have a great co-enrollment program with the local 
high school with the Union County public school systems where 
students can remain in high school, working on their high 
school diploma for half a day and then half a day work on a 
career and technical training initiative at the center. We also 
have an outstanding partnership with Henderson Community 
College. We have 10 students enrolled in there and plan to have 
more in the years to come. But again, what's important wouldn't 
be able to do this, they wouldn't think about doing these 
things if they didn't feel comfortable, if they didn't feel 
safe, if they didn't know Job Corps was a safe place for them 
to return after college.
    Mr. Polis. And what would it mean for the students who were 
served by Job Corps if the funding was severely cut or 
eliminated, what would their lives look like?
    Mr. Barton. Their options would be drastically limited or 
reduced, it would be very sad. And quite honestly, they would 
be faced with a life with challenges that they had before they 
enrolled in the Job Corps program.
    Mr. Polis. Thank you. I yield back.
    Mr. Guthrie. Thank you Madame Chairwoman for having us here 
today. Thank you for the witness for being here, Mr. Barton, 
particularly coming up from home. Actually, as you know, 
Morganfield, Union County, is in the first district. My 
colleague James Comer has talked to me at least three times 
this week about this hearing and testimony and speaks very 
highly of the way you run your job center and the quality of 
the job center you have at the Earle Clements.
    I also have the Great Onyx, which is in the -- next to the 
Mammoth Cave national park. So I'm very aware of the good work 
going on in Kentucky.
    But I want to ask Ms. Barnes first a question. It's my 
understanding there used to be a suitability policy whereby 
additional reviews were in place to determine whether an 
applicant was suitable for Job Corps and that this policy was 
terminated in the previous administration?
    I know GAO is in its initial stages of looking into the Job 
Corps program. But going forward, do you plan on looking into 
the contracted admissions process and whether the requirements 
surrounding admissions are being met, and do you think this is 
some work the GAO should look into?
    Ms. Barnes. We do plan to look at additional safety and 
security issues as well as some of that process. But as you 
mentioned, we are very early on.
    Mr. Guthrie. So looking into the suitability of just 
admissions even into the Job Corps program?
    Ms. Barnes. Yes.
    Mr. Guthrie. You are looking at that?
    Have you completed any work in this area? You said it's 
very early in the process. You haven't really completed any 
working in this area yet?
    Ms. Barnes. Not yet.
    Mr. Guthrie. Okay. Thanks for that.
    And, Mr. Turner, in your testimony, you noted that efforts 
by the Department to mitigate some of the noted concerns could 
have been taken much earlier than 2015?
    If the Department had asked you to address your concern in 
a more robust and timely manner, do you think the program would 
be safer today?
    Mr. Turner. It's hard to say that, with certainty, that it 
would have been safer. What we have found, through our 2015 and 
2017 report, that when nothing is done, their -- their increase 
and rate balance moves up a lot more. So that's one of the 
things that we found.
    But I can't say that there would have been a change because 
of different personnel with people. And so it's really hard to 
say. But I just can say that if anything does not take place, 
then there is a marked increase in violence.
    Mr. Guthrie. Okay. Well, Mr. Barton, so when the admissions 
process sends people into the Job Corps, is there -- I know 
they used to have the suitability standard. Is there any 
concern about that for you? I know that -- so when they look at 
the admissions process, is this program really suitable for 
this person coming into the program? Have any of you had any 
experience with that since that's been terminated that you 
think should be addressed?
    Mr. Barton. You know, I can tell you at the Earle C. 
Clements Center, we have implemented a pre-arrival call. So 
it's a call to the student before they arrive on center just to 
make sure that the student is serious about obtaining an 
education and training at the center, they know what to bring, 
what to expect.
    Because we're in a remote location, we are unable to have 
center tours for most of our new arrivals. So the pre-arrival 
call really does take the place of that. And so it suggests to 
the student that they are prepared, they're ready, and they're 
anxious to come. So that's worked well for us.
    Mr. Guthrie. Yeah. Union County is remote, but it is 
beautiful, isn't it?
    Mr. Barton. It is.
    Mr. Guthrie. That you very much. And that completes my 
questions.
    And I yield back and the balance of my time.
    Chairwoman Foxx. Thank you very much, Mr. Guthrie. Ms. 
Bonamici, you're recognized for five minutes.
    Ms. Bonamici. Thank you very much Chair Foxx and Ranking 
Member Scott for holding this hearing. It's a very important 
conversation that we're having. And I know that each and every 
one of us cares greatly about the safety of students at their 
Job Corps locations. And, of course, we're concerned about 
that.
    And oftentimes, as we see, the data show that students are 
actually safer at Job Corps than out in the community. And 
that's certainly true with some of my Job Corps centers.
    I have in Oregon, two local Job Corps. Tongue Point Job 
Corps Center is in Astoria, Oregon; and Partners in Vocational 
Opportunity Training Center, or PIVOT; in Northwest Portland. 
And I visited many times and spoken with students and spoke at 
the graduation at Tongue Point. And I know, Mr. Barton, you 
talked about what that means to those students and their 
families to see a graduation. It's really, really meaningful.
    Students are earning a whole range of credentials and 
practical skills, including carpentry and seamanship. Astoria 
is around the beautiful Oregon coast. Culinary arts, office 
administration -- a whole range of possibilities and, really, 
opening up of opportunities for them.
    But I want to highlight a story of Cassandra. Cassandra 
went through a culinary arts program at Tongue Point. She 
graduated in 2016. She came to Washington, D.C., last year to 
explain to lawmakers why Job Corps is important to her -- to 
develop skills, to earn a credential, to learn in a safe 
environment. And this is particularly important to Cassandra, 
because Cassandra is transgender. And we know how challenging 
it is for transgender youth to be and feel safe in the 
community. And Cassandra is an inspiring young woman who 
applauded the Tongue Point community for affirming her and 
making her feel safe in her learning environment.
    So, Mr. Barton, in your testimony, you said for many of our 
students Job Corps is a refuge. And I know you shared some of 
the stories from your community about what happens when 
students are able to break out of, you know, gang activity and 
perceived threats to their safety.
    So can you expand on some of the challenges that students 
face when they return to their communities? You talked a little 
bit about that. And after you answer that, I want to ask -- Ms. 
Barnes, your preliminary audit refers and includes the data on 
offsite incidents. So can you explain what that means? And 
could that include incidents that happened outside the purview 
of Job Corps? That doesn't seem like an accurate way to report 
on the success of the program if, like, Mr. Barton said 
students leave the program during a holiday or something.
    Can you talk about what that means? And, Mr. Barton, can 
you expand on the challenges that students face when they leave 
the Job Corps campus?
    Mr. Barton. Absolutely. And most students -- or some 
students do not return home, and they begin that plan early, as 
soon as they arrive on the Job Corps center. They know what 
their home life is like, choose not to return back there. And 
they begin a plan, a personal career development plan and a 
projection to not return home.
    Many times they team up with some friends they've made at 
the center, move and live locally to give themselves a fresh 
start. And that's something that our counseling team and staff 
work with students on center who want to relocate early in 
their Job Corps career so, when graduation approaches, it's a 
smooth transition to a new State, new job, new environment, and 
a fresh start on life. And that's -- that's the outcome that 
we're looking for all of our students.
    Ms. Bonamici. Thank you.
    Ms. Barnes, can you talk about what you meant by offsite?
    Ms. Barnes. Sure. The offsite incidents include activities 
that our supervisors are sponsored by Job Corps as well as 
those that are not. And the reason why we -- it's included in 
the data I presented today is because the Department of Labor 
has a policy in their significant incident reporting system to 
report these type of incidents that involve Job Corps students.
    Ms. Bonamici. Thank you.
    And, Mr. Barton, can you talk about some of the effective 
strategies to improve safety? We all want students to be safe. 
So what types of programs and services are you implementing at 
Earle C. Clements to ensure safe and welcoming living and 
learning environment? And can you talk about how you could 
perhaps share that information with other Job Corps centers, is 
there a way to do that now so that other Job Corps centers can 
learn from your experience in making it a safe environment?
    Mr. Barton. Sure. I think the most important thing that we 
do at the center is make safety a relevant priority to all 
students, to all staff. We have safety team meetings where 
students are part of those meetings. We make sure that we have 
regular patrols on center. Checking every bag when students 
come back for any type of trips or passes.
    But more importantly it's being connected with the student 
population. Not having a disconnect or a void between staff and 
students. So, again, managing by walking around, knowing every 
student, making students or ensuring that students are 
comfortable to report anything that they see that's out of 
place on center immediately and them having the confidence in 
the staff to know that we will react and make sure that we take 
care of that right away.
    So I think it's a litany of things done at one time to make 
sure that a center is safe.
    Ms. Bonamici. Thank you. And I see my time has expired.
    Thank you, Madame Chair.
    Chairwoman Foxx. Thank you very much.
    Mr. Estes, you're recognized for 5 minutes.
    Mr. Estes. Thank you, Madam Chair.
    One of the things that I want to make sure I focus on in my 
questions is around the safety aspect, which is, I think, the 
purpose of this hearing. I know there's been a lot of 
discussion around the value of the Job Corps program in 
general, and I want to make sure we focus just on the safety 
aspect.
    And, Mr. Turner, one of the questions I had was, you know, 
your Department pushed back on the conclusion that law 
enforcement needs to be contacted by Job Corps centers for 
potential criminal misconduct. And the 2017 report indicated 
there were five assaults that required hospital visits that 
were not reported.
    Is better Department oversight needed to ensure that the 
infractions are being reported?
    Mr. Turner. Yes, there is. We felt like that was part of 
the problem with the Department, that they did not have any 
kind of system to monitor what was being done to ensure that 
people were following the policies that it had outlined.
    Law enforcement is a very important part, because without 
that they could compromise any kind of criminal matter that 
takes place. And so we were concerned about that and that 
further puts the students at risk. And that was some concerns 
that we brought out.
    Mr. Estes. I mean, why would we not -- I mean, have you 
heard explanations or justifications for not reporting? I think 
that's the appropriate agencies to help provide that support.
    Mr. Turner. We were surprised. Some of it was they felt 
like it was hard because there were different levels of law 
enforcement. Some at the State, Federal, as well as there -- 
each city -- our area has different agreements. And so there 
was concern on their part in terms of going in and establish 
separate agreements. We felt like it was still worth doing 
that.
    The other part they pushed back on is that we felt like 
there needs to be something in writing that the staff as well 
as the students would be able to understand who to contact when 
something does take place or when there is a requirement. And 
so that was part of the problem. There was no written or 
identified means to establish who to contact. And we think 
that's important.
    Mr. Estes. I would agree with you in terms of the important 
standpoint. Being a relatively new Member, we've kind of gone 
through the procedures for our offices. And one of the things 
that we've addressed with our district offices are some of 
those aspects of what we would do if an incident happened with 
one of our employees there at our district office. So I think 
that same kind of logic would apply to a Job Corps center.
    The other question I had, Mr. Turner, was around the 2009 
and 2010 audits. And they identified several issues related to 
safety. Have those issues been addressed?
    I can understand maybe all the issues from 2015 wouldn't be 
addressed. But those audits that were several years ago now -- 
should have been enough time to be addressed.
    Ms. Barnes. If all the recommendations that came out of 
2009-2010 timeframe were all addressed and they were all 
corrected. What we found to be a problem is there was nothing 
in place to sustain. There were no policies in place. So there 
was no spot-checking to ensure that the policies stayed in 
effect.
    So when we -- there are calls for us to go back and 
actually do some additional audits based on the response that 
we received from 2013 and 2012. We had a lot of feedback that 
we they were getting from some of the center students that 
there as still a violence problem and that was ongoing. And so 
that prompted our 2015 audit.
    Mr. Estes. Okay. Thank you.
    Madame Chair, I yield back.
    Chairwoman Foxx. Thank you very much.
    Ms. Shea-Porter, you're recognized for 5 minutes.
    Ms. Shea-Porter. Thank you very much.
    I think we're all in agreement that the safety and the 
welfare is incredibly important, probably No. 1, for the 
responsibility of the Job Corps. And so it's important that we 
have this hearing.
    But it's also important to remember what the purpose of the 
Job Corps is and what it does for the disadvantaged youth of 
our country. So I hope we don't lose sight of that. And I've 
been encouraged by the positive comments that I've heard at 
this hearing.
    2015 saw the opening of a new center near Manchester in my 
State of New Hampshire. And we're every proud of the work being 
done there.
    Madame Chair, I ask unanimous consent to add into the 
record a letter from the Manchester Police Department sent to 
this committee expressing their support for the Job Corps work 
and admission and discussing the partnership they have with New 
Hampshire Job Corps.
    Chairwoman Foxx. Without objection.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Ms. Shea-Porter. Thank you.
    Mr. Turner, on page 10, you said the Job Corps reported it 
was improving physical security as funding permits. Could you 
expound on that? Is funding one of the main reasons that 
they're not doing this, or can you explain the role that -- and 
why you wrote that?
    Mr. Turner. Funding is something, ma'am, that I think that 
the Department would be better equipped to address in terms of 
whether or not they could afford to do some of their actions.
    Ms. Shea-Porter. Okay. So when they gave you that 
statement, you just took it and put it into the report. But we 
don't really know if funding is --
    Mr. Turner. Well, I do know that they have received 
additional funding for some of the physical concerns -- as far 
as physical security for some of the centers. I think for this 
year they have 12 million that they're going to dedicate for 12 
centers, and I think next -- 14 centers -- I'm sorry. And next 
year they have another 12 million for 12 additional centers.
    There was a lot of things that we found out in our report 
from just a physical security aspect, from perimeter to just 
metal detectors and just lighting around the different centers. 
So those were some of the things. And when they explained it to 
us, they did indicate that they had ran out of funding. And 
that's why that some of those centers did not have those 
improvements.
    Ms. Shea-Porter. Okay. So based on what they told you and 
what you wrote, funding does appear to have some role -- or 
lack of funding in some role --
    Mr. Turner. It has some role. But, again, they could speak 
better to that than we could. But, yes, we were told that it 
did have some role.
    Ms. Shea-Porter. Okay. Thank you.
    And you said they corrected everything but they need to 
stay on it so --
    Mr. Turner. Yes. Again, we found that to be -- the bigger 
problem is that, once you correct something, that you got to 
say: You know what? When you look at audits, there is really 
two big pieces to that. One of it is to identify what's wrong 
and to -- correcting it. And the other piece of that is ensure 
that there is a sustainment effort- that you don't go back to 
the problems you had before.
    Ms. Shea-Porter. Okay. Thank you.
    And, Mr. Barton, do you think funding has anything to do 
with some of this? I recognize that it's not all of it. Some of 
it, you know, the directors bear responsibility for not 
reporting and not having the relationship that they need to 
have with the P.D. et cetera.
    But do you think funding has some role in what we're 
talking about.
    Mr. Barton. You know, maybe that would be a better question 
for the Department of Labor. But I can tell you that Mr. 
Turner, in his statement, said that Job Corps has reacted. 
There has been a lot of corrections that have taken place 
already. And I think that's the position that we're going to 
continue on. Constant improvement, constant enhancements, 
making sure we're alert and aware, and keeping safety and 
security the foremost initiative in Job Corps.
    Ms. Shea-Porter. Okay. The purpose of the question is, if 
it's a question of funding in any way for security, that's 
something that we would have to address right away if that 
could make the students safer there.
    Also, Mr. Barton, what are you proudest of? When you think 
about, you know, the work that you do, what's the thing that 
you are the proudest of?
    Mr. Barton. You know, I think what makes me proud, and 
possibly a lot of my colleagues, is making a difference in the 
lives of students that were really in challenging positions 
before they've arrived at Job Corps.
    Ms. Shea-Porter. Okay. And do you have a network with other 
center directors? Do you have a way to, like, share, exchange 
ideas, any peer review? Is there any way -- because, obviously 
-- like we're very proud of ours in New Hampshire. But there 
appear to be a few that need more support or need some change. 
Do you have any kind of network that allows all of you to 
communicate with one another, and is there a peer-review 
system?
    Mr. Barton. You know, I can tell you Job Corps refers to 
those as best practices. There was a time when we were able to 
have meetings and come together as center directors. That has 
since changed. And we're hopeful that one day maybe those CD 
meetings and other Job Corps-related meetings can occur again, 
because they were extremely beneficial.
    Ms. Shea-Porter. So you don't even have like a phone 
network or any way that you can --
    Mr. Barton. Phone and email, certainly.
    Ms. Shea-Porter. Right.
    Mr. Barton. But the meetings were effective as well.
    Ms. Shea-Porter. Right.
    So there's no peer review, peer encouragement, any best 
practices exchanged very little right now. Am I correct?
    Mr. Barton. Within the Job Corps companies, I would imagine 
that best practices are exchanged, yes.
    Ms. Shea-Porter. Okay. Thank you.
    I yield back.
    Chairwoman Foxx. The gentle lady's time has expired.
    Mr. Barletta, you're recognized for 5 minutes.
    Mr. Barletta. Thank you.
    Madam Chair, I ask unanimous consent to enter a letter from 
the National Job Corps Association into the permanent hearing 
record.
    Chairwoman Foxx. Without objection.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Mr. Barletta. Mr. Barton, thank you for being here and all 
that you do for the Job Corps program. As the Republican chair 
of the Job Corps Caucus, I have long been supportive of the 
program. The Keystone Job Core Center operates in my district. 
And during my time as mayor of Hazelton, Pennsylvania, I 
witnessed the great things that Job Corps can do for these 
young adults that traditional educational systems could not. 
I've also seen the local partnerships that the Keystone Center 
has developed and the tremendous benefit that those 
relationships have had on my local area.
    When I was mayor, the Keystone students worked to restore 
the old sidewalks around city hall. They also took part in the 
downtown beautification project, and they designed these 
beautiful trash receptacles that are still there today. The 
students there helped volunteer fire departments perform smoke 
alarm tests and go door to door offering their assistance 
installing working detectors.
    They participated in the United Way's annual Thanksgiving 
dinner and even volunteer with Habitat for Humanity. The 
culinary students put their skills to use by preparing meals 
for many of our local events. And I've also had tremendous Job 
Corps students intern in my Hazelton congressional district 
office. And just as Keystone gives back to their community, the 
community invests in them.
    Keystone has a strong working relationship with the Butler 
Township police department. A partnership that spans over 50 
years. The cooperation between the center and the police 
department is based on open and constant communication.
    Most recently, an officer came to speak to the students in 
the security program about the rewards and challenges of being 
in law enforcement. Local church leaders visit once a week 
giving students a chance to talk to someone from outside the 
center if something is bothering them. Retired folks in the 
community even drop by to tutor those students. Many students 
simply do not have access to these types of positive 
relationships before they came to Keystone.
    Now, I'm citing these examples, as you can see, that the 
students are very involved in our community. The management at 
Keystone has told me their community partnerships help to 
reduce safety incidents. And I can see why. Teaching students 
to live in the community, and to be part of one, fosters a 
sense of self value that lends itself to a sense of 
accountability to others.
    I'm proud to represent Keystone, and I believe that every 
Job Corps center has the responsibility to be a good neighbor. 
I also recognize that Job Corps centers are the first time 
students have been away from the place where they grew up. 
Helping them realize a new sense of community is fundamental in 
making them feel at home, and so is their safety.
    So my question, Mr. Barton, is we can all agree that one 
death or incidence of violence is one too many. Can you tell me 
about the efforts your center undertakes to engage students in 
the local community, and if you believe these activities 
increase safety? And are there ways that the Department of 
Labor can encourage Job Corps centers across the country to 
become more involved with their local communities to encourage 
a culture of accountability, safety, and security?
    Mr. Barton. First of all, thank you for being chair of the 
Job Corps caucus. We appreciate that. And I need to tell you 
that, at Earle C. Clements, we -- and just hearing those stores 
at Keystone, it's quite similar at Earle C. Our culinary 
students make or prepare meals for Veterans Day, and are always 
assisting in the community.
    But I can tell you that an initiative led by our national 
office of Job Corps -- it's called Youth to Youth. And that was 
rolled out. That initiative was put forward 6 months ago or so. 
And it is an anti-bullying platform. And it encouraged students 
to get out in the community, work with local school systems, 
work with local residents to send a message that there are 
other ways to solve problems besides bullying and hazing and 
fighting. And that initiative has been extremely beneficial to 
Job Corps.
    Students across the country have expressed other coping 
skills to deal with problems other than violence or arguments 
and teaching students how to get to an end without conflict. So 
that Y2Y, is what's it's referred to, has been extremely 
popular and successful in Job Corps. And we're going to 
continue those types of initiatives moving forward.
    Mr. Barletta. Thank you for the work you're doing.
    Thank you, Madame Chair.
    Chairwoman Foxx. Thank you. The gentleman's time has 
expired.
    Ms. Wilson, you're recognized for 5 minutes.
    Ms. Wilson of Florida. Thank you, Madam Chair.
    This is really earth-shattering for me today to be here at 
this hearing. I think this is the first time since I've come to 
Congress that I've had three African-American people testifying 
before a committee. So I say welcome to you. And you're 
testifying about something that is very close to my heart. Job 
Corps.
    And I've had experience with Job Corps since I was a very 
young woman. My sorority, Alpha Kappa Alpha, operated the 
Cleveland Job Corps for 30 years. And I was involved in all of 
that operation. And I want to say to Mr. Bartlett, I want to 
join the Job Corps Caucus. And I appreciate them having a Job 
Corps Caucus.
    As African-American people, we don't have much. Society has 
not -- has seen that our children don't have the many 
opportunities that other children have. So the safety that they 
have put in place, that the government has put in place, and 
the few things that we do have for these children, one of them 
that I try to champion is Job Corps.
    And Job Corps is one of the best kept secrets in this 
Nation. And if more people knew the good that Job Corps does, 
the more support Job Corps would get.
    So I can tell you about the Job Corps center in Miami. The 
Job Corps center in Miami sends to me an intern every semester. 
From the time I served on the Miami-Dade County school board, 
I've had Job Corps children interning at my office.
    Whenever I have community events, the ROTC from the Job 
Corps performs at every community event I have. I have HIV/AIDS 
summits for Black AIDS Day, for National Aids Day. My 
volunteers are always from Job Corps. I have a huge job fair 
every year, and all of the school of Job Corps is there to help 
with that. We have a drug conference every year, and they are 
there. We have antiviolence conferences, and they are there.
    And I have letters to put into the record from our Miami 
Gardens Police Department, and it says: ``This letter serves to 
confirm the outstanding relationship the City of Miami Gardens 
Police Department has with Miami Job Corp Center. We'' --
    Chairwoman Foxx. Without objection.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Ms. Wilson of Florida. ``We consider the Miami Job Corps 
center students and staff to be great partners.''
    And I know how important it is for you serving 
organizations to have solid relationship with law enforcement. 
Can you speak to your center's relationships, Mr. Barton, with 
the police department? Because we have a great partnership.
    And I'll let you speak in a minute, but I want to make sure 
that I submit these letters for the record: One from the Miami 
Gardens Police Department, one from Florida Memorial University 
that has a partnership with Job Corps, one from the Kiwanis 
club, and one for -- from Urban Growing Institute. And I want 
you --
    Chairwoman Foxx. Without objection.
    [The information follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Ms. Wilson of Florida. -- to come to Miami and see how the 
Miami Job Corps operates. I want you to listen to the stories 
that I listen to every day. I go to Job Corps two and three 
times a year to speak to them. They're in my office all the 
time.
    This is a refuge for these children. Please. Whatever you 
can, protect Job Corps. Think about where they would be, 
especially the black boys, if there was no Job Corps. And we 
all know the answer to that.
    And I just want to say to Mr. Turner, you mentioned that 
the 12 centers you visited -- that the report had security 
weaknesses and that it was related to the physical campus. 
Could many of these issues you say are the cause of inadequate 
security cameras, security staff shortages, is that a result of 
funding? So let us look at how we're funding these Job Corps 
centers.
    And, Mr. Barton tell me about the police with law 
enforcement with your --
    Chairwoman Foxx. The gentle woman's time has expired.
    Ms. Wilson of Florida. Oh, I yield back.
    Chairwoman Foxx. You're recognized for 5 minutes.
    Mr. Garrett. Thank you, Madame Chair.
    I wonder if any of the panelists could tell me what 
percentage of Job Corps participants are female?
    Mr. Barton. Well, I can tell you, at the Earle C. Clements 
Center, we have currently 16 percent female.
    Mr. Garrett. So let me start by saying that I have had the 
unique opportunity repeatedly to visit the Old Dominion Job 
Corps, and I'm familiar personally with Danny Grimes, the 
director of that center. And I am a vociferous advocate for the 
good work done by Job Corps.
    My contention is that, inherent to American citizenship, is 
the right to have an opportunity, and that Job Corps creates 
opportunity for young people in circumstances wherein often 
that opportunity is too difficult to find.
    Having said that, the subject matter of this hearing isn't 
about support for Job Corps. I think there's near consensus 
that Job Corps is an effective and excellent program that 
extends opportunity to young people who might have been born 
amongst the least fortunate of us. But it's about the safety at 
Job Corps centers.
    And the reason I began my questioning with what percentage 
of Job Corps participants were female, is the data in the ETA 
that we were provided and the statistics and specifically, in 
this instance with relation to sexual assault. It's not 
difficult to determine the rate of sexual assault per 100,000 
population in the country. It's not difficult to ascertain that 
the groups demographically and age-wise most disproportionally 
affected by sexual assault are the age and demographics of the 
Job Corps participant pools. But it's still troubling when you 
learn without regard for the percentage of females in the 
program, which are 77 times more likely to be a victim of a 
sexual assault than at the population at large. Conceding, of 
course, that the numbers are higher for the 18-to-24 age 
bracket which primarily is served by Job Corps.
    It's terribly troubling to me when you learn that 82 to 90 
percent of victims of sexual assault are female and the 
population of the Job Corps centers is roughly 16 percent 
female. And that you're still 77 times more likely to be the 
victim of a sexual assault based on the data that we've been 
provided in a Job Corps center.
    Likewise, we heard testimony from my colleague for whom I 
hold great regard, Congressman Polis from Colorado, that you're 
actually at a lower risk of becoming a victim of homicide in 
the Job Corps, but that doesn't change the fact that 
participants in Job Corps were 14 times more likely than the 
general population to be a victim of homicide.
    Now, in the general population pool, amongst the ages 
served by Job Corps, the number is about 15 times more likely; 
right? So we can demonstrate that Job Corps is, in fact, a 
safer place fractionally and that we're really reaching out to 
people who need the help the most?
    But I guess what I'm driving at here is I support Job 
Corps. I support maintaining funding for Job Corps antithetical 
to the budget of the President who occupies the White House 
who's of my party. But we do have a safety issue or else there 
wouldn't be a hearing.
    So I suppose the point that I'm driving at here is thank 
you all for the good work you do, but we're not done yet. 
There's more that needs to be done. And recognizing that, for 
example, young women in 4-year colleges are three times more 
likely to be victims of sexual assault than the population at 
large.
    And so, yes, there are circumstances that are horrible that 
we should seek to address while it's not throwing out the 
proverbial baby with the bathwater, right? You guys do good 
work on the oversight side, on the running-the-facility side, 
on the program side. But let's keep trying to push these 
numbers down; right?
    So I want to color my remarks with a thank you and an 
imploration to continue to try to do even better. I don't 
disagree that Job Corps provides better circumstances for young 
people than they would have outside the Job Corps. But the 
numbers are still such that we need to do more. That's all.
    Madame Chair, I yield back my time and again thank the 
panelists, all three. I don't want to see this program be hurt, 
because people point out numbers like these and use it as an 
excuse to hurt this program. There's too much good going on. 
Let's make it better.
    Thank you.
    Chairwoman Foxx. Thank you, Mr. Garrett.
    Mr. Espaillat, you're recognized for 5 minutes.
    Mr. Espaillat. Thank you, Madame Chair.
    This is a great program, one of a few programs that has 
survived since the 1960s, including Head Start, Medicaid, 
Medicare. This particular program, the Job Corps program, I 
think is an example of what we can do for our -- the people 
that we represent. What government can do. How government can 
be a force of good and do for the people that we represent. 
Obviously, just like any other program, it will encounter 
difficulties.
    Violence is not exclusive of the Job Corps program. You 
know, there's sexual assault going on in the -- unfortunately, 
in the armed forces. Sexual assault against women in colleges 
across the Nation. Violence in the schools. Unfortunate and 
tragic shootings in the schools. So violence, in general -- 
it's a problem across society, and it is not exclusive of the 
Job Corps. I think the Job Corps, in fact, have helped reduce 
violence in urban settings by giving young people that would 
otherwise be exposed to violence an opportunity to move 
forward.
    So, you know, I don't think that we should dismantle this 
program. I think that we should strengthen it and work with the 
program to ensure that steps are taken to cure any incidents of 
violence, just as they occurred across our society. I don't 
think Job Corps has ownership of that. It is pervasive across 
society.
    And so, Mr. Barton, I know that you first started in Job 
Corps in the South Bronx, in New York, the State that I 
represent. And I just want to know: Do you have any numbers for 
how many people from New York are participating in the Job 
Corps, by any chance?
    Mr. Barton. At the Earle C. Center?
    Mr. Espaillat. Yes.
    Mr. Barton. I don't have those right now, to be specific.
    Mr. Espaillat. I would appreciate if you can share with 
them with me at some point.
    Ms. Barnes. I will do that.
    Mr. Espaillat. I want to get that information. And if you 
can even make them by congressional district, it will be even a 
greater tool for us to know exactly what our -- how many young 
people in our district are benefiting from -- what would occur 
to these young people if the program was dismantled? I mean, 
what -- what would happen? Explain to me. You were a 
participant. What would happen?
    Mr. Barton. I think initially many students wouldn't know 
what to do. Many would be forced to return home to a home life 
with extreme challenges, no work, lack of skills, lack of 
education, lack of any type of credential, forced to take low-
wage jobs. And it would just create a continuous cycle of not 
achieving, not feeling as if there's any future.
    I think what Job Corps brings is hope for the future, a 
safe haven for students to achieve high school diplomas, 
trades, primary credentials, and right to work. And it's so 
important that -- that we acknowledge that students are 
leaving, going right to work.
    Again, at Earle C. Clements, we have a 90 percent placement 
rate. Students would not achieve that if they didn't feel safe. 
It's just a wonderful opportunity for young people to better 
their lives.
    Mr. Espaillat. What kind of professions and trades are 
young people graduating with the skills to then go into the 
workforce? This is a great job-producing program. What kind of 
skills are you teaching them that are -- that is consistent 
with the need that we have in society for jobs?
    Mr. Barton. At Earle C. Clements, we have carpentry, 
electrician, we have the deckhand trade, we have facility 
maintenance, which is warehousing. And all of these trades are 
applicable to entry and mid-level jobs.
    Right now, we have a litany of nursing and healthcare 
trades at the center. And so we know, with the proper training, 
with the proper work ethic, that are our students will graduate 
the program and move on to great jobs and great careers and 
change their lives and, more importantly, their family's lives.
    Mr. Espaillat. Madame Chair, thank you. I just want to say 
that, again, the Job Corps does not have exclusivity in 
violence across America. We want to work with them to save this 
program and strengthen their -- the steps that they have 
already begun to take to ensure that no incidents occur in the 
future.
    I yield back my time.
    Chairwoman Foxx. Thank you very much.
    Mr. Ferguson -- excuse me. Mr. Lewis, you're next for 5 
minutes.
    Mr. Lewis. Thank you, Madame Chair, and thank you to the 
witnesses today. I don't think there's any doubt in this room 
that everybody agrees with the goals that we're trying to get 
to. I'm especially enthused by the emphasis on vocational 
training and what you're doing and what some of the other 
programs are doing.
    But there does appear to be a problem here. The law is 
fairly clear. -- Mr. Turner, I'll start with you -- on the zero 
tolerance policy for acts of violence and drugs and other 
disruptive activity. But as the, you know, inspector general 
report or the audit revealed, there were center operators that 
did not report 21 percent of the serious infractions. They 
downgraded 15 percent of other infractions. There were 
situations where the OIG found that centers were not contacting 
law enforcement for 140 out of 348 potential serious criminal 
misconduct instances. That's 40 percent. Twelve centers did not 
report numerous significant incidents to Job Corps. The 
cooperative agreement supposedly established with law 
enforcement did not materialize. And I'm trying to figure out 
why that is.
    You know, in your written testimony, you suggested that 
there was an attempt to avoid some of the adverse effects of 
early dismissals on the performance outcomes. Let me be blunt. 
Do you think there's been a culture of -- or a conflict of 
interest, if you will, that, look, if we report all this stuff, 
contract renewals could be in jeopardy, our centers are not 
going to look quite as good, they're not going to meet their 
goals, and so someone's turning the other cheek?
    Mr. Turner. While we did not investigate intentional fraud 
or criminal fraud, we did find that there may have been several 
reasons for this.
    One of those reasons we feel like may have been in some 
cases where the center operator was trying to give the students 
a second chance, in some cases. We also feel like it could have 
been human error. But we also thought there was a possibility 
that there may have been some performance, you know, motivation 
behind that. We felt like, in some cases, the center may have 
had a conflict of interest, meaning that if they had to -- if 
they had to graduate X amount of students and they fall short 
of that, it could have impact on their performance of their 
contract renewal.
    Mr. Lewis. Yeah. And --
    Mr. Turner. Or bonuses that may be associated with it as 
well.
    Mr. Lewis. Exactly. And then that concerns me deeply, 
because you've got, as they say, a bit of a conflict of 
interest there operating and -- at the expense of a lot of 
young people.
    Do we have plans to put something in place to provide 
incentives in the other direction to make certain we get 
compliance and reinstate the zero policy with some 
effectiveness?
    Mr. Turner. Well, we have not done enough work on this one 
way or the other. But we can look to do more. It is a concern 
that we have raised with the department. And so we do share 
your concern.
    Mr. Lewis. Thank you.
    Mr. Barton, I'd like to continue with regard to the 
effectiveness of the program. I want to make certain we're 
getting our money's worth. We're going to debate a CTE bill 
that this committee has been working on today. It provides 
about a billion dollars -- 1.1 billion a year for Federal 
support for career and technical education. And yet the Job 
Corps program costs us $1.7 billion a year for 50,000 students. 
That's $33,000 per student. Where can we get efficiencies here? 
That seems to be a little bit of a high price to me.
    Mr. Barton. Well, I think we have to look what Job Corps 
does. Wrap-around services; day and evening structured 
programs; a safe haven to obtain a high school diploma; achieve 
multiple credentials; go right into the world of work, college, 
advanced training, and/or the military. And so when you look at 
the multiple benefits that over 50,000 students will receive 
across the country from Job Corps, the student-year cost all of 
a sudden seems absolutely worth it. Job Corps is an outstanding 
spend for thousands of students.
    Mr. Lewis. And yet the study you cited found little 
difference between Job Corps participants and nonparticipants 
in earnings after four years completing the program.
    Mr. Barton. I --
    Mr. Lewis. How do you -- yeah. Go ahead.
    Mr. Barton. I think students to have a long-term plan. And 
that's one of the things that Job Corps assists students with: 
Planning for their future, making sure that they have a good 
career track, and that the CTT offering that they choose or 
select has many options and avenues, that they can continue to 
increase their education level, increase their wages, and make 
sure they can do better for them and their families.
    And there's just one thing that I do want to say about a 
question that you were asking Mr. Turner. Job Corps centers -- 
it does not help a Job Corps center to keep a student that is 
not paying attention to the rules and regulations. What that 
does is hurt the culture.
    Mr. Lewis. Certainly -- we all certainly agree with that.
    Thank you for your testimony. I yield back.
    Chairwoman Foxx. Thank you very much, Mr. Lewis.
    Mr. Takano, you're recognized for 5 minutes.
    Mr. Takano. Thank you, Madame Chair. I apologize. This seat 
over here was kind of stuck, and that's why it went -- I just 
wanted to let you know.
    Chairwoman Foxx. No problem.
    Mr. Takano. Okay.
    Mr. Barton, I just want to -- this issue of efficiency and 
CTE funding to school districts versus the number of students 
you serve through the budget that you have, is it really fair 
to compare the supplemental CTE funding that school districts 
get with the complete total wraparound services that you 
provide for the young people that come to your program?
    Mr. Barton. You know, I think the question is where would 
the -- the students that we serve go? That's the question -- 
traditional schooling -- many of them had trouble in 
traditional schooling, and they turned to Job Corps as an 
alternative for their education.
    And so one of the things that is a platform for Job Corps 
is primary credentials. CTT training, ensuring that you leave 
with a high school diploma. And not looking for a job, leaving 
with employment.
    So certainly it's beneficial. The spend of dollars for 
students moving through the program to obtain these credentials 
and to complete their trades and moving right into work, it 
absolutely makes sense to continue to fund that.
    Mr. Takano. Yeah. I was just getting at -- there was a 
comparison being drawn to the number of students that are 
served with CTE funding versus the number of students that are 
funded through Job Corps. But I was trying to make the point 
that it was maybe an unfair comparison, it's apples and 
oranges, because you have a more holistic complete wraparound 
that you serve with the students, not supplemental funding with 
CTE. And it's quite remarkable you actually are -- these 
students are leaving with the ability -- your program with the 
ability to go straight into the job. That is quite remarkable.
    Mr. Barton, you were an academic manager for a Job Corps at 
one point. Can you speak to where many students are 
academically when they arrive into the program?
    Mr. Barton. Sure. Certainly.
    Speaking for Earle C. Clements, the majority of our 
students enter with a reading and math level at about the 8th 
grade level, 8th or 9th grade level. So certainly, that's a 
challenge from the very beginning. And again, wraparound 
services, offering tutoring, day and evening programs. Can't 
stress that enough. That is when there is idle time. And we 
need to capture that time with tutoring, structured programs to 
ensure that students are leaving with reading and math gains 
which is essential for high school diploma achievement. And --
    Mr. Takano. A lot of developmental educational work is 
developing their reading skills, developing their math skills. 
How intensive is the student-to-instructor ratio? I mean, is it 
a small ratio? Is it 10 to 1? 20 to 1? As far as the number of 
instructors per -- or students per instructor.
    Mr. Barton. Right. So in most our classrooms, academic and 
CTT, it's about 12 to 1.
    Mr. Takano. Yeah. That's what I was thinking. It's pretty 
intense. And that's -- that can be expensive. But it's 
necessary with intensive developmental education that's really 
going to perform and deliver results.
    Mr. Barton, you state in your written testimony that many 
Job Corps students have been unsuccessful in a traditional 
education system and have learned maladaptive behaviors for the 
classroom or workplace. Can you speak to how Job Corps responds 
to youth under these circumstances and works to ensure that 
these young people can thrive academically? And you've already 
mentioned some of them in your early response?
    Mr. Barton. Right. I think it starts with residential 
living, making sure that students know how to take care of 
their home, which, in Job Corps, is their room. But waking up 
on time, dressing for success, wearing your uniform, showing up 
on time, being attentive in class, being attentive to work-
based learning opportunities or internships in the local and 
not-so-distant area, and showing that work ethic to their 
supervisor and on-the-job training that they go every day, that 
they have the ability to come in, follow directions, and have 
the foresight to do the job well.
    Mr. Takano. So in your written testimony, you speak to how 
your center has improved in its efforts with regard to high 
school completion and credential attainment. Can you speak to 
those efforts and what it has meant for the center and its 
students?
    Mr. Barton. Oh, I think it's just -- the placement rate 
over 90 percent is phenomenal. And what a good feeling it is to 
watch a student walk across the graduation stage, knowing 
they're leaving with their high school diploma, their trade, 
multiple credentials, and a job. And as I've stated before, for 
many of our students, they're first in their family. And so the 
primary credential is the graduate placement. All of those 
things are attained because students feel welcome, safe, 
secure, and it's in an environment for learning.
    Mr. Takano. That 12-to-1 ratio -- I just want to go back to 
that. I just remember visiting Duke University in North 
Carolina and asking what they do for their freshman writing 
class. And it's a 12-to-1 ratio. And that kind of, I think, 
intensity and expenditure and attention to young people, I 
think, is -- you know, is requisite.
    Madame Chair, I'm over my time. I yield back.
    Mr. Barton. Right. I just need to add, that may vary in 
some class at some times on centers.
    Mr. Takano. Thank you.
    Thank you.
    Chairwoman Foxx. The gentleman's time has expired.
    Mr. Grothman, you're recognized for 5 minutes.
    Mr. Grothman. Right. I want to dance around between all of 
you here, but I -- Mr. Barton said something that offended me a 
little bit, and I'd like to ask him to elaborate on it.
    Somebody asked what would happen to these folks if they 
were not in Job Corps, and you responded they might have to 
take a low-paying job. I will tell you, I wish we had all the 
Congressmen around here. Maybe next time Chairman Foxx can go 
around the table and see how much the first job that every one 
of these Congressmen -- had how much it paid.
    But you clearly belittled the idea of a low-paying job, 
like it was something not worth doing. And I've always felt 
that employers, when they look to hire somebody, they're not as 
much concerned about the credentialism or -- or something like 
Job Corps. Have you done another job? Have you shown that 
you're going to show up all the time? Are you courteous, you 
know? Do you have an employer who's going to say something nice 
about you?
    And I assume you're, to a certain extent, a leader in a 
community. And I was very concerned that you said that, well, 
if they weren't in Job Corps, they might have to have a low-
paying job, like it wasn't worthwhile to work for $8 or $9 or 
$10 an hour. Do you want to maybe elaborate on that a little 
bit?
    Mr. Barton. Yes. And certainly didn't mean to offend you or 
anyone else. And it's -- and so let me say this: What we want 
for our students is for them to attain their high school 
diploma, multiple credentials, and the opportunity to make a -- 
or to enter into the workforce equipped to take care of their 
families and themselves. So certainly, any job that our student 
gets, we're proud of them. However, we want to make sure that 
they're equipped to get the best employment possible currently 
and throughout their working career.
    Mr. Grothman. Okay. I think there are probably very few 
people in our society who can say their first job paid 15 bucks 
an hour or more. And I certainly -- if I was looking to hire 
somebody, I would look and see what type of jobs they had 
before. I wouldn't want to see a credential. I want to see, you 
know, have you shown that you're a hard worker? Have you shown 
that you can hang around somewhere for 1 or 2 years. And to 
kind of imply that there was something wrong with an 18-year-
old or 19-year-old making 8 or 9 bucks an hour, I think you're 
sending entirely the wrong message.
    I would be much more likely to hire somebody who was making 
8 or 9 bucks an hour and doing a good job at it than somebody 
coming out of Job Corps, in part because of the reasons for 
this hearing. And I will open it up to Ms. Barnes and Mr. 
Turner as well.
    I suppose the goal of Job Corps is to wind up with somebody 
getting a job. And when you hear these statistics, like 50,000 
injuries or illnesses, and -- you begin to wonder how tight a 
ship they're running at Job Corps. You know, if I have to pick 
at somebody -- if I have an employer and I have to decide 
somebody who's been working for -- or at least experiencing Job 
Corps and somebody who is working at a $9 or a $10 an hour job 
for 2 years, I'm telling you, when I -- when I -- if I was 
paying attention to this hearing, I'd take the person who was 
working for 8 or 9 or 10 bucks an hour for two years every 
time.
    Because if that person had been working there for that long 
a period of time, I know that man or woman had proven 
themselves as worthwhile to an employer out there and would be 
much more likely to prove themselves worthwhile to me as 
opposed to a program that looks to me kind of loosey-goosey.
    Ms. Barnes or Mr. Turner, do you care to respond to that? 
Do you think it will make it more difficult or does make it 
more difficult for employers to hire Job Corps graduates when 
this sort of -- these newspaper articles get out there? I mean, 
you can understand, as an employer, why maybe some of these 
people would be -- would have been better off just working at a 
regular job even if that regular job paid 8 or 9 bucks an hour.
    Ms. Barnes. Yeah, I understand what you're saying. But that 
was outside of the scope of what we did for this review.
    Mr. Turner. It's also outside the scope for us. I think, to 
get to your bigger point, it's important that Job Corps clean 
up the balance in Job Corps so that the image of students that 
graduate, I think, would be more positive.
    Mr. Grothman. Okay. Do you know -- and I don't know that 
you guys would have it or Mr. Barton would know. Do you know 
how many students were unable to get a job after leaving Job 
Corps because they failed a drug test?
    Mr. Barton. How many students were unable?
    Mr. Grothman. Yeah. Does that ever happen? In my district, 
one of the problems -- you know, first of all, at this time, 
Job Corps is least needed because our -- at least in my area, 
the unemployment rate is so low. But one of the problems 
employers have in my area is a lot of them say that they don't 
want to hire new employees who can't pass a drug test.
    And I wondered, is that a problem for Job Corps recipients? 
Are you doing constant drug tests to make sure that, when they 
leave Job Corps, they at least aren't going to, you know, 
stumble the first hurdle because they're flunking a --
    Mr. Barton. Right. I can tell you that we have a 90 percent 
placement rate. And so that suggests that our graduates are 
being hired and are able to pass a test. But I don't have a 
specific number for that.
    Chairwoman Foxx. Mr. Grothman, you're time has expired. The 
Gentleman can submit questions --
    Mr. Grothman. Okay.
    Chairwoman Foxx. -- to the witnesses and gather that 
statistic if it is -- if it is out there. And I would encourage 
you to do that.
    Ms. Adams, you're recognized for 5 minutes.
    Ms. Adams. Thank you, Madame Chair. And I want to thank the 
ranking member as well and thank you all for your testimony.
    This hearing sheds light on some important issues that 
affect Job Corps programs and many at-risk youth that it 
serves. The hope that -- as we focus on the unacceptable safety 
and security lapses that certain Job Corps centers, that we 
don't throw the baby out with the bathwater and fundamentally 
change the program that serves over 800 students in the State 
of North Carolina whose mortality rate for students rests far 
below that of the general population.
    In fact, we can honestly say that to get rid of Job Corps 
would put our students in a far more dangerous position than 
they currently find themselves in. So to that end, Madame 
Chair, I have a letter from the Henderson Police Department, 
which serves the Job Corps center in Kittrell, North Carolina, 
that expresses that sentiment. And I'd like to enter it into 
the record recovered.
    Chairwoman Foxx. Without objection.
    [The information follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
      
    Ms. Adams. All right. Thank you.
    I want to focus on the great services that Job Corps has to 
offer to our communities and the damage underfunding of the 
program will do to our local economies.
    I also have a letter, Madame Chair, from the Henderson-
Vance Chamber of Commerce that expresses that sentiment as well 
and would like to -- get enter this into the record as well.
    Chairwoman Foxx. Without objection.
    [The information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Adams. Thank you.
    Mr. Turner. Let me start with you. You mentioned that your 
follow-up report was partially in response to the two student 
murders that were conducted in 2015. So considering your prior 
report covers the time between 2009 to 2015, would you agree 
that Job Corps did not have time to fully implement your 
recommendations or improve their program management based on 
the initial report before you began to collect data for the 
follow-up on report?
    Mr. Turner. Well, ma'am, let me just say that those were 
two different reports. The first report dealt with student 
discipline, and the second report dealt with engagement of law 
enforcement, also review a physical -- I mean, physical 
security around the centers. And then also what kind of 
proactive actions could be taken by the center to mitigate some 
of the problems that we identify with law enforcement.
    Ms. Adams. Would you -- would it be fair to say that Job 
Corps should have time to implement your recommendations before 
further judgment of the program safety or effectiveness?
    Mr. Turner. No, ma'am, because we actually felt like there 
was a follow-on report that was, again, separate but touched on 
some of the same themes. But it was a completely different 
report. So we stand by our report.
    Ms. Adams. Okay. Ms. Barnes, your report mentioned the 
number of offsite incidents. Does offsite incidents data 
include times when a Job Corps student was not under 
supervision of Job Corps?
    Ms. Barnes. It does include that. It includes other things 
such as supervised program-related activities, like field 
trips. I mean, we included those because the Department of 
Labor's policy, all incidents are required to be reported that 
involve Job Corps students, whether they're onsite or offsite.
    Ms. Adams. What about victims?
    Ms. Barnes. Victims?
    Ms. Adams. Uh-huh.
    Ms. Barnes. Victims are included in -- you mean offsite or 
onsite?
    Ms. Adams. Onsite.
    Ms. Barnes. Onsite. Yeah. We do have -- did include 
information on victims as well as the perpetrators in the data.
    Ms. Adams. Okay. All right. Thank you very much. I have no 
further questions.
    Madame Chair, I yield back.
    Chairwoman Foxx. Thank you, Ms. Adams.
    I thank our witnesses again for taking the time to testify 
before the committee today. And I recognize Ranking Member 
Scott for his closing remarks.
    Mr. Scott. Thank you, Madame Chair. And I'd like to thank 
the witnesses for testifying today. I want to thank the -- and 
thank you for calling the hearing.
    We've heard a lot about how the Job Corps is 
transformational for the overwhelming number of students who 
finish this program. And we've heard that from both sides of 
the aisle. We've learned about skills training. We did have a 
comment from our colleague from Wisconsin about whether it's 
better to be in the Job Corps or just working in a low-skill 
job. I'm sure if you're running a shipyard and have a choice 
between someone who has been working a low-skilled job or 
someone that has their welding certificate and knows how to 
weld, there's no question you'd obviously pick the welder for 
that nice-paying job rather than the person that had been 
working at a low-skill job.
    Now, I'm not brushing aside the violent acts that have 
occurred at Job Corps centers or as the gentlelady from North 
Carolina has just noticed, that you could be, to be in these 
statistics, offsite and a victim. It's kind of hard to credit 
the Job Corps for that situation. But these are serious 
problems, and programs need to continue to work to improve 
center safety and implement the inspector general 
recommendations.
    But let's be clear. As we've heard from both sides, these 
young people -- some of the hardest-to-serve young people are a 
lot better off in the program than continue on the trajectory 
that they would have been in had it not been for the Job Corps.
    Mr. Scott. And society is a whole lot better off with young 
people getting jobs, rather than being on the way to jail.
    The OIG and GAO reports do not provide a context or even 
comparisons to what happens to Job Corps population compared to 
similar demographics that do not get into Job Corps. And I 
think when you compare those two data sets, we'll find the Job 
Corps is a good deal for these young people, but of course 
there is always room for improvement.
    And we need to make sure that all the improvements that can 
be made are made. I would like to thank the inspector general 
for the long list of recommendations that need to be 
implemented.
    I am disappointed, as you've indicated Madam Chair that the 
National Office of Job Corps is not here. They would have been 
able to better illuminate the steps they are taking to make Job 
Corps more safe and secure, while confirming the testimony of 
Mr. Barton showing the change in the young people in terms of 
employment rate, reduced crime, reduced teen pregnancy and 
other improvements in their life options.
    I know Madam Chair that you have sent an oversight request 
and I hope you'll share the results of that request with our 
office, but we need to still hear directly from the office of 
Job Corps.
    Meanwhile, Madam Chair, I ask unanimous consent to enter 
into the record the response to the IG report from the 
employment and training administration.
    Chairwoman Foxx. Without objection.
    [The information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    Mr. Scott. Thank you, Madam Chair. And I hope soon we are 
going to work together to try and improve the program, because 
it does provide successful options for thousands of young 
people across our Nation.
    Thank you and I yield back.
    Chairwoman Foxx. Thank you, Mr. Scott. I want to clarify 
for the record a couple of issues that came up in the testimony 
that we did not get facts in.
    Job Corps received approximately $1.7 billion in the fiscal 
year 2017 omnibus, which included a $15 million increase to be 
used specifically for improving the safety and security of the 
program. The fiscal year 2016 omnibus spending bill directed 
the Department of Labor to review and address student safety 
concerns throughout the program in order to maintain a safe and 
effective learning environment.
    As was mentioned by Mr. Lewis, each student participation 
cost is $32,960 for the most recent program year for which data 
is available.
    And in the President's fiscal year 2018 budget request, 
it's approximately $1.4 billion for Job Corps. It requested no 
reduction in the program construction or administration 
accounts but would reduce program operations funding by 
approximately 237 million. The budget includes proposals to 
close chronically low performing centers and giving priority to 
enrollment of students age 20 or older.
    This hearing was established to discuss the safety and 
security of Job Corp programs, that was the emphasis. However, 
many of my colleagues have talked about why we need Job Corps 
programs. And as I sat here and listened, I thought it is a 
commentary on our culture that we are comparing murder rates 
and assault rates in Job Corps with the larger culture. And 
it's the larger culture that creates the needs.
    What we're doing is continuing to put Band-Aids on the 
problems of the larger culture and that is very troubling to 
me, that we do not look at what creates the need for a Job 
Corps. We are not putting the emphasis on the fact that we have 
a dysfunctional culture. These young people should feel safe 
and secure in their home community and not have to be taken out 
of their home community and placed in a setting like Job Corps.
    I realize that people feel that they should promote this 
program because it serves students who need help, but I'm 
appalled at the dismissal of the safety concerns that we've 
heard today. It's quite obvious, despite what some people are 
saying, that safety and security are not paramount in these 
centers or we would not be seeing the horrific number of deaths 
and violent behavior that we've heard about today. And these 
numbers are just the minimum numbers of these incidents.
    We can see safety is a concern of students. One in five 
students think about leaving because of safety concerns, based 
on the research. But we have ongoing work to delve deeper into 
the issue and something we cannot gloss over.
    Both the Department and the contractors have a lot of work 
to do and importantly that work must persist and continue to be 
enforced over the long term.
    Bottom line, these numbers are alarming and cannot be 
tolerated in a program that uses taxpayer dollars and it's a 
lot of money.
    I thank our witnesses again for being here. I thank all the 
members who came and were engaged.
    There being no further business, the committee stands 
adjourned.
    [Additional submissions by Ms. Barnes follow:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    
    [Additional submission by Chairwoman Foxx follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    
    
    
    [Additional submissions by Ms. Fudge follow:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    [Additional submissions by Mr. Polis follow:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    [Additional submissions by Ms. Wilson follow:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    [Whereupon, at 12:08 p.m., the committee was adjourned.]

                                 [all]
                                 
                                 
                                 
                                 
                                 
                                 
</pre></body></html>
